  Inspector General’s Report to Congress

             Fiscal Year 2000

October 1, 1999 Through September 30, 2000





                            Inspector General’s Report to Congress   145

                                             Mission

                            To improve Social Security
                      Administration programs and operations
                       and protect them against fraud, waste,
                       and abuse by conducting independent
                       and objective audits, evaluations, and
                         investigations. To provide timely,
                        useful, and reliable information and
                        advice to Administration Officials,
                             Congress, and the public.

                                                Vision

                          By conducting independent and
                        objective audits, investigations, and
                       evaluations, we are agents of positive
                          change striving for continuous
                        improvement in the Social Security
                       Administration’s programs, operations,
                                 and management.




146   SSA’s FY 2000 Performance and Accountability Report
Message From the Inspector General

                         I am pleased to present the Social Security Administration’s (SSA) Office of the
                         Inspector General (OIG) Report to Congress for Fiscal Year (FY) 2000. This
                         report meets the requirements of the Inspector General Act of 1978, as amended,
                         and includes information that is mandated by Congress.
                          The accomplishments that are highlighted in this year’s report result from the
                          dedicated efforts of each member of the OIG staff. Due to this commitment, the
                          OIG continues to make significant progress in each and every area of our
                          organization. When added collectively, the OIG total monetary results exceed
                          our FY 2000 appropriation by an estimated $740 million. The Office of
                          Investigations reported over $282 million in investigative accomplishments with
                          over $30 million in SSA recoveries, restitution, fines, settlements, and
                          judgments; over $151 million in SSA savings; and over $29 million in non-SSA
                          savings. The Office of the Counsel to the Inspector General (OCIG) reported
                          over $1.2 million in penalties and assessments imposed for persons making false
statements. In the area of misleading advertising, OCIG settled four major cases that resulted in the
imposition of over $1.1 million in penalties, achieved a voluntary compliance with eight companies, and
secured a permanent injunction against one chronic offender whose scheme targeted new brides. The
Office of Audit issued 65 reports with recommendations that over $236 million in Federal funds could be
put to better use and identified over $76 million in questioned costs. Additionally, because of a
recommendation in a prior report entitled, Effects of State Awarded Workers’ Compensation Payments on
Social Security Benefits, issued in September 1998, SSA has revised our estimation of payment errors to
$1.07 billion in underpayments and $261 million in overpayments. This exceeds our initial projection by
over $800 million.
In addition, this past year we continued our crusade to limit Social Security number (SSN) misuse and
support the integrity of SSA’s enumeration process. We continued this crusade in an effort to limit the
spread of identity fraud through SSN misuse. We had many partners in this endeavor including SSA and
Congress. Besides participating in the Department of the Treasury’s National Identity Theft Summit in
March 2000, we testified before congressional committees, and participated in International conferences
to advance awareness of these problems. As a result of the multitude of efforts in this area, Congress
intensely focused on SSN misuse and potential legislative remedies.
One of the underlying strengths of the OIG is our employees’ strong sense of mission and our ability as an
organization to build upon our successes, while remaining flexible and responsive to current issues. In
August 2000, we fielded a Workplace Survey to all OIG employees, which obtained a phenomenal
completion rate of 91 percent. At our Managers’ Conference in September 2000, all OIG managers
received training on how to use the survey results to develop an action plan aimed at strengthening our
organization. We will use the survey to identify best practices within OIG as we continually strive to
improve our performance.
As part of our strategic planning process for FY 2001, we focused on our fundamental mission to increase
the efficiency and effectiveness of SSA programs and operations, while detecting, eliminating, and
preventing fraud, waste, and abuse. The most difficult part of developing the plan was to determine
which activities to measure and track in order to ascertain the impact of positive organizational changes
which result in: a productive work force; reduced operational costs; elimination of redundant processes;
improved service delivery; acquisition of the appropriate type, quantity, and amount of resources;



                                                                     Inspector General’s Report to Congress   147
elimination of ineffective internal controls; and improved procedures and operational efficiencies. Each
of the managers within the OIG will track, monitor, review, and revise their work plan in order to ensure
that efforts lead to the achievement of the strategic goals. In a careful and methodical manner, we hope to
address each of the areas that we are responsible for, and provide outstanding public service.
In closing, I am confident that OIG employees are prepared to meet the challenges that are before us with
the highest level of integrity and accountability. I continue to be proud of our accomplishments and know
they could not have been achieved without great effort from OIG staff, the cooperation of the Agency, and
the support of Congress.
                                                      Sincerely,




                                                      James G. Huse, Jr.




148   SSA’s FY 2000 Performance and Accountability Report
Table of Contents

Reporting Requirements .......................................................................... 150

Significant Activities ................................................................................ 151

Office of the Counsel to the Inspector General ........................................ 155

Office of Investigations ............................................................................ 159

Office of Audit .......................................................................................... 171

Resolving Office of the Inspector General Recommendations ............... 183

Reports Issued From October 1, 1999 Through September 30, 2000 .... 187

Appendices ................................................................................................ 193





                                                                                  Inspector General’s Report to Congress   149
Reporting Requirements

The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual reports. The
requirements are listed below and indexed to the appropriate pages in this report.


                                       Reporting Requirement                                         Page

 Section 4(a)(2)       Review of Legislation and Regulations                                       156 - 157

 Section 5(a)(1)       Significant Problems, Abuses, and Deficiencies                              151 - 182
 Section 5(a)(2)       Recommendations With Respect to Significant Problems, Abuses, and           151 - 182
                       Deficiencies

 Section 5(a)(3)       Recommendations Described in Previous Semiannual Reports on Which           205 - 208
                       Corrective Actions Have Not Been Completed

 Section 5(a)(4)       Matters Referred to Prosecutive Authorities and the Prosecutions and        155 - 169
                       Convictions Which Have Resulted

 Sections 5(a)(5)      Summary of Instances Where Information Was Refused                            None
 and 6(b)(2)
 Section 5(a)(6)       List of Audit Reports                                                       187 - 191

 Section 5(a)(7)       Summary of Particularly Significant Reports                                 171 - 182

 Section 5(a)(8)       Statistical Table Showing the Total Number of Audit Reports and Total       183 - 184
                       Dollar Value of Questioned Costs
 Section 5(a)(9)       Statistical Table Showing the Total Number of Audit Reports and the Total   185 - 186
                       Dollar Value of Recommendations That Funds Be Put to Better Use

 Section 5(a)(10)      Audit Recommendations More Than 6 Months Old for Which No                   183 - 186
                       Management Decision Has Been Made

 Section 5(a)(11)      Significant Management Decisions That Were Revised During the                 None
                       Reporting Period

 Section 5(a)(12)      Significant Management Decisions With Which the Inspector General              209
                       Disagrees




150   SSA’s FY 2000 Performance and Accountability Report
Significant Activities

       he past year proved to be a remarkable one for          Our Office of Investigations (OI) also used existing

T      our organization. Since our establishment in
       1995, we have built an organization of highly
skilled professionals focusing on critical issues in the
                                                               resources to expand its SSN Misuse Task Force pilot
                                                               projects. We initiated two additional pilot projects in
                                                               Baltimore, Maryland, and Seattle, Washington, supple­
Social Security Administration’s (SSA) fight against           menting pilot projects already in place in Chicago, Illi­
fraud, waste, and abuse. Our effectiveness is evidenced        nois; Cleveland, Ohio; Detroit, Michigan; Milwaukee,
by our numerous accomplishments highlighted through-           Wisconsin; and St. Louis, Missouri. To facilitate these
out this report and by the frequency of requests for the       projects, our agents adopted lead roles in organizing
Inspector General to testify before Congress on our crit­      and coordinating activities with Federal and State law
ical issues. The following discusses several of our most       enforcement agencies. Of particular interest this report­
significant activities during Fiscal Year (FY) 2000.           ing period is the Detroit Task Force’s partnership with
                                                               the Michigan Attorney General’s Office’s high tech
     Social Security Number Misuse and                         crime unit which will bring a proactive focus to SSN
                Identity Theft                                 misuse and identity theft involving the Internet.

                                There were two important       During FY 2000, these Task Forces opened 176 investi­
                                events that brought the pri­   gations under these pilots, which resulted in 116 Fed­
                                vate and public sectors        eral and State convictions. The following showcases
                                together to discuss solu­      two investigations in this area.
                                tions to the problem of
                                identity theft. The first of   •	   The St. Louis Task Force identified a Missouri
                                these events was the Cana­          Department of Revenue office manager who produced
                                dian Identity Fraud Work-           counterfeit State of Missouri identification cards
                                shop, which was held in             using fictitious names and SSNs. The man sold these
                                Toronto in February 2000.           identification cards to individuals who used them to
                                Our office presented an             commit a variety of financial-related crimes. During
                                overview to attendees rep­          an undercover operation with Postal Inspectors, our
                                resenting Canada, Austra­           agents purchased a Missouri identification card from
                                lia, and the United                 the office manager. As a result of our investigation,
                                Kingdom on the impact of            he was incarcerated and ordered to pay $200 in fines
identity theft in the United States. Our staff discussed            and assessments.
the role of Social Security numbers (SSN) in identity          •	   The Seattle Task Force, using information developed
theft crimes, initiatives at the Federal and State levels to        by SSA, determined that a professor at Central Wash­
combat identity theft, and the Office of the Inspector              ington University had created 19 fictitious identities
General’s (OIG) efforts to combat SSN misuse at SSA.                and applied for SSNs using these identities. He used
Our staff also participated in round table discussions              the false SSNs to obtain State of Oregon identification
with the representatives to identify common problems                cards and rent private mail boxes under the aliases.
and possible remedies.                                              Armed with these fraudulent documents, he opened
                                                                    numerous bank accounts and credit card accounts.
The second event, the National Identity Theft Summit
                                                                    Fortunately, the task force was able to investigate and
held in March 2000, hosted by the Department of the
                                                                    indict the professor prior to any financial losses being
Treasury in Washington, D.C., incorporated five panels
                                                                    incurred. After pleading guilty, he was incarcerated
to discuss victim issues, prevention measures, and
                                                                    and fined $4,000.
short-term remedies for both the private sector and gov­
ernmental agencies. OIG co-coordinated and the                 SSN misuse and identity theft also received significant
Inspector General moderated the Prevention Panel.              congressional and public interest since the SSN often
This panel was designed to give the attendees ideas and        plays a central role in facilitating identity theft.
suggestions on how to prevent identity theft.                  Because the SSN is at the core of SSA’s programs and
                                                               operations, we were invited to provide congressional
                                                               testimony on the following occasions this year.




                                                                                Inspector General’s Report to Congress   151
•	    Statement for the Record provided to the Senate Com­    As SSA embraces “electronic service delivery,” many
      mittee on the Judiciary, Subcommittee on Technology,    of its functions will be available on the Internet. With
      Terrorism, and Government Information regarding         this transition we expect that the occurrence of Internet
      Identity Theft - March 7, 2000                          fraud, and other criminal activity conducted in an auto-
                                                              mated environment, will increase. We established the
•	    Hearing before the House Committee on Ways and
                                                              Electronics Crime Team within CID to meet this chal­
      Means, Social Security Subcommittee regarding
                                                              lenge. This group provides technological assistance to
      Social Security Program Integrity Issues -
                                                              our investigators, as well as investigative assistance to
      March 30, 2000
                                                              the Agency in resolving intrusions into SSA’s network
•	    Statement for the Record provided to the House Com­     computer systems.
      mittee on Ways and Means, Social Security Subcom­
      mittee regarding Social Security Number Misuse -                      Representative Payees
      May 9, 2000
                                                                                          SSA provides benefits to the
•	    Statement for the Record provided to the Senate Com­                                most vulnerable members of
      mittee on Governmental Affairs, Permanent Subcom­                                   our society – the young, the
      mittee on Investigations regarding the Sale of False                                elderly, and the disabled.
      Identification Documents Via the Internet -                                         Congress granted SSA the
      May 19, 2000                                                                        authority to appoint repre­
                                                                                          sentative payees for those
•	    Hearing before the Senate Committee on the Judi­                                    individuals judged incapable
      ciary, Subcommittee on Technology, Terrorism, and                                   of managing or directing
      Government Information regarding Social Security                                    their own benefits. Repre­
      Numbers and Identity Theft - July 12, 2000                                          sentative payees receive and
•	    Hearing before the Senate Committee on the Judi­                                    manage payments on behalf
      ciary, Subcommittee on Technology, Terrorism, and       of these individuals. For the most part, representative
      Government Information regarding the Emergence of       payees are honest individuals and true caregivers.
      Identity Theft as a Law Enforcement Issue in Califor­   However, there are some people who have taken advan­
      nia - August 30, 2000                                   tage of their position as representative payees of these
                                                              vulnerable individuals. Because of this, it is imperative
To strengthen penalties for SSN misuse and identity           that SSA has appropriate screening safeguards and
theft crimes, we proposed to Congress and SSA that            monitoring plans in place to ensure that representative
they expand the Civil Monetary Penalty (CMP) pro-             payees meet their responsibilities.
gram to include SSN misuse and identity theft penal-
ties. We expect that SSN misuse and identity theft            Representative payee fraud is a major investigative
allegations and investigations will increase and, as          focus. OI responds to allegations involving all types of
such, legislative remedies need to be enacted.                representative payees from individuals to large-scale
                                                              organizations representing hundreds of individuals.
         Critical Infrastructure Division                     Our most significant case this year involved the investi­
In response to the Presidential Decision Directives           gation of the Aurora Foundation, Inc., a high-volume,
62 (Terrorism), 63 (Critical Infrastructure Protection),      fee-for-service, organizational representative payee
and 67 (Continuity of Government), OIG established            serving over 140 disabled individuals in West Virginia.
the Critical Infrastructure Division (CID). Members of        In partnership with the Federal Bureau of Investigation
CID are comprised of both audit and investigative pro­        (FBI), our investigation revealed that the founder and
fessionals. CID worked with SSA’s System Security             president of the foundation embezzled over $300,000
Officers and National Computer Center staff to define         from April 1995 through May 1999. He was incarcer­
an intrusion response policy that includes OIG notifica­      ated and ordered to pay restitution of $303,314 to SSA
tion and investigation, if warranted. As SSA becomes          and $1,360 to the Department of Veterans Affairs.
more dependent on electronic data, special consider­          Our Office of Audit’s (OA) Quick Response and Fraud
ation must be given to protect the transmission, storage,     Liaison Team, which responds to requests from the
and processing of sensitive data from cyber and/or            White House, Congress, SSA management, and SSA’s
physical threats. We recognize that this mission goes         Advisory Board, was also actively involved in this area.
far beyond our traditional audit and investigative roles.     Because of the widespread media play and intense con­
                                                              gressional concern about the Aurora Foundation, Inc.,



152    SSA’s FY 2000 Performance and Accountability Report
the team amassed information from OI and SSA for use                     Cooperative Disability Investigations
by the Inspector General in the following two congres­                                 Teams
sional hearings.
                                                                    In conjunction with SSA’s Office of Disability, we
•	   Hearing before the Senate Special Committee on                 administer the Cooperative Disability Investigations
     Aging regarding the Organizational Representative              (CDI) teams. These teams investigate suspicious dis­
     Payee Program - May 2, 2000                                    ability claims under the Social Security and Supple-
•	   Statement for the Record provided to the House Com­            mental Security Income (SSI) disability programs.
     mittee on Ways and Means, Social Security Subcom­              These teams are comprised of OIG investigators, State
     mittee regarding the Representative Payee Program -            law enforcement officers, as well as SSA and State Dis­
     May 4, 2000                                                    ability Determination Services (DDS) personnel. These
                                                                    teams use their combined resources and talents to inves­
We also began performing independent on-site audits of              tigate suspicious initial and continuing claims of dis­
a limited number of representative payees. We expect                ability referred to the teams by DDS offices. The teams
to complete these audits before the end of FY 2001.                 investigate the case to either verify or refute the suspi­
These audits will identify those problem areas that need            cion. If verified, the teams provide SSA with sufficient
to be addressed to ensure that individuals’ benefits are            evidence to deny benefits and assess an overpayment, if
being managed in a sound fiduciary manner. Our work                 applicable.
has contributed to SSA developing new strategies in the
selection, monitoring, and oversight of representative              In the fourth quarter, we added 3 additional CDI teams
payees.                                                             to bring the total number of teams to 11. These teams
                                                                    are currently operating in the following States: Califor­
                                                                    nia, Florida, Georgia, Illinois, Louisiana, Missouri,
                                                                    New Jersey, New York, Oregon, Texas, and Virginia.
                                                                    The following table shows a statistical breakdown of
                                                                    the CDI teams’ accomplishments for FY 2000.

                      Allegations         Confirmed          SSA Recoveries                                       Non-SSA
                                                                                       SSA Savings*
                       Received          Fraud Cases          & Restitution                                       Savings*
 California               479                 189                      $26,604              $11,157,588               $8,029,554
 Florida                    0                  0                             $0                        $0                      $0
 Georgia                  302                 166                      $36,082                $9,507,927              $3,470,283
 Illinois                 197                  24                      $89,044                  $937,885              $1,290,000
 Louisiana                217                  48                       $8,506                $2,586,905                $449,500
 Missouri                 154                  86                      $25,507                $5,343,015                 $14,400
 New Jersey                68                  10                      $31,205                  $277,430                       $0
 New York                 214                 115                     $127,347                $5,447,949              $5,867,730
 Oregon                   178                  75                       $2,578                $4,342,208              $1,702,825
 Texas                     28                  1                             $0                  $30,720                     $840
 Virginia                   4                  0                             $0                        $0                      $0
     TOTALS              1,841                714                    $346,873               $39,631,627             $20,825,132
 *SSA program savings are reported at a flat rate of $66,500 for initial claims that are denied as a result of CDI investigations,
 using a formula developed by the Office of Disability. When a CDI investigation supports the cessation of an in-pay case, the
 SSA program savings are calculated by multiplying the actual monthly benefit times 60 months. Non-SSA savings are also
 projected over 60 months whenever another governmental program withholds benefits as a result of CDI investigations, using
 estimated or actual benefit amounts documented by the responsible agency.




                                                                                      Inspector General’s Report to Congress    153
154   SSA’s FY 2000 Performance and Accountability Report
Office of the Counsel to the Inspector General

       he Office of the Coun­                              The following cases highlight some of our most signifi­

T      sel to the Inspector
       General (OCIG) pro­
vides legal advice and coun­

                                                           cant work in this area.
                                                           •	   One of our employee investigations proved that a ben­
sel to the Inspector General
                                   efit authorizer had stolen more than $328,000 while
and the various components
                                     working at SSA. Although he pleaded guilty to wire
of OIG. OCIG supports OI
                                       fraud, he was only sentenced to 4 months incarcera­
and OA by identifying and 
                                     tion and ordered to pay restitution of $50,000. After a
reviewing legal implications
                                   review of the case file, we determined that he made a
and conclusions from audit
                                     total of 93 false statements and we imposed a CMP
and investigative findings. 
                                   penalty and assessment of $908,234.
This office is also responsible 
                          •	   A mother, serving as representative payee for her
for administering the CMP 
                                     daughter, made numerous false statements to SSA to
authorities under sections 1129 and 1140 of the Social
         conceal her daughter’s death which occurred in 1994.
Security Act.
                                                  As a result, she improperly collected SSI benefits
                                                                from August 1994 through March 1998 totaling
  Section 1129 of the Social Security Act –                     $20,656. On January 20, 2000, we imposed a penalty
             False Statements                                   and assessment of $62,180. This consisted of twice
                                                                the amount of overpayment resulting from her false
The Commissioner of Social Security has delegated to
                                                                statements occurring after October 1, 1994, plus an
the Inspector General the authority to impose CMPs
                                                                additional $5,000 for each of those false statements.
against violators of section 1129 of the Social Security
Act. Section 1129 prohibits persons from making false      •	   A spouse acting as representative payee for his wife
statements or representations of material facts in con­         began collecting disability benefits on her behalf after
nection with obtaining or retaining benefits or payments        his wife sustained serious injuries in an automobile
under titles II or XVI of the Act. After consultation           accident. When the couple divorced and the wife
with the Department of Justice, OIG is authorized to            returned to work, the ex-husband continued to tell
impose penalties of up to $5,000 for each false state­          SSA that he was married and that his wife did not
ment or representation, as well as an assessment of up          work while continuing to receive her benefits. This
to twice the amount of any resulting overpayment.               resulted in a $57,361 loss to the Government. He
                                                                pleaded guilty to one felony count of fraudulent con­
This program continues to grow as our investigative             cealment of a material fact in violation of Title 42
organization matures. The following table outlines the          United States Code section 408(a)(4). He was only
results for these activities this FY.                           ordered to pay $657 of court ordered restitution.
                                                                After initiating a CMP action, we obtained a $65,000
                        FY 2000                                 settlement.
                 Section 1129 Statistics                   •	   In April 1997, a mother applied for Social Security
                                                                benefits for her son, claiming that he lived with her.
      Cases Referred From
                                           197                  The mother also applied for and became her son’s rep­
      OI
                                                                resentative payee. Based on an allegation, we initi­
      CMP Cases Initiated                  102                  ated an investigation and found that she used the son’s
                                                                benefits for herself. As a result of her false state­
      CMP Cases Closed                     126                  ments, she received and misused $5,631 in benefits.
                                                                After we initiated a CMP action, she submitted
      CMP Penalties and
                                     $1,262,071                 $8,131 in settlement of the CMP claim.
      Assessments

      Number of Hearings
                                           4
      Requested




                                                                            Inspector General’s Report to Congress   155
     Section 1140 of the Social Security Act –                   •	   National Processing Center, also profited from death
             Misleading Advertising                                   benefit insurance “lead card” mailings sent to senior
                                                                      citizens. Shortly after imposing a $15,000 CMP on
Section 1140 of the Social Security Act prohibits the                 the owner, our investigators found the owner picking
use of SSA’s program words, letters, symbols, or                      up “reply cards” for similar misleading mailers using
emblems in advertisements or other communications in                  a different business name and post office box. The
a manner that falsely conveys approval, endorsement,                  company owner never appealed the $15,000 CMP and
or authorization by SSA. Each misleading communica­                   we referred the matter to SSA for collection. We con­
tion subjects the violator to a maximum $5,000 penalty.               tinue to look into various mailers that use SSA’s good
                                                                      name or symbols to generate insurance leads.
The following table shows section 1140 case activity
for this FY.                                                     •	   We also shut down Newlywed Document Service
                                                                      Corporation and Marriage Notification Service of
                                                                      America, two Nevada corporations that were defraud­
                          FY 2000                                     ing brides across the country through the misuse of
                   Section 1140 Statistics                            SSA’s name. With the investigative assistance of OI,
                                                                      and with the cooperation of the U.S. Attorney for the
 Complaints Received                            284
                                                                      District of Nevada and SSA’s Office of the General
 New Cases Opened                                39                   Counsel, we obtained a Federal injunction to stop the
                                                                      mailing of misleading advertisements and to freeze
 Cases Closed                                    40                   the assets of both companies and its principals. A set­
                                                                      tlement was eventually reached where the owners of
                        No Violation             28
                                                                      the two companies were required to terminate the
              Voluntary Compliance                8                   operations of the two companies and to pay a $60,000
                                                                      CMP.
              Settlement Agreement
                                           4 / $1,189,500        •	   A lead card company in California, under the name
                (# of cases/amount)
                                                                      CMIS, was mailing misleading solicitations that gave
               Penalty/Court Action                                   the impression that the mailings were endorsed,
                                                0/0
                (# of cases/amount)                                   approved, or affiliated with SSA. The mailings were
                                                                      directed towards senior citizens and if the senior
 Number of Hearings                               0                   returned the mailer’s reply card, the reply card was
 Requested                                                            used as an insurance lead. As a result of our cease and
                                                                      desist letter, the company agreed to drastically modify
Due to our aggressive strategies against misleading                   its mailings. We will, of course, monitor the com­
advertisers, we are receiving fewer complaints of                     pany’s mailings to ensure future compliance.
misleading SSA-related solicitations. This demonstrates               Legislative Proposal and Regulatory
that full implementation of the CMP Program is                                 Comment Reviews
accomplishing its objective – to prevent and deter fraud.
In cases where companies are not violating section 1140,         The Inspector General Act of 1978, as amended, autho­
but may be violating Federal or State laws enforced by           rized the Inspector General to review existing and pro-
other entities, we refer the complaints to the appropriate       posed legislation and regulations relating to its agency’s
agency for action. The following cases are examples of           programs and operations. During FY 2000, we
                                                                 reviewed various legislative proposals related to SSA
our work in this area.
                                                                 and fraud, waste, and abuse. During the course of the
•	    Senior Direct, Inc., under the name “Regional Pro­         review, we sought to ensure that the potential for fraud
      cessing Center,” sent death benefit insurance “lead        and abuse in SSA programs was adequately addressed.
      card” mailings to senior citizens that appeared to be      We also commented on legislative options to address
      from or related to SSA. When a senior citizen would        specific areas of concern regarding identity theft.
      return the “reply card,” a salesperson would try to sell
      an insurance policy to the individual. We entered into     Specifically, we reviewed 13 legislative proposals. One
      a settlement agreement with Senior Direct, Inc.,           such legislative proposal was the Identity Theft Preven­
      whereby the company agreed to pay a $17,500 pen­           tion Act of 2000 introduced in the Senate as S. 2328.
      alty.                                                      This bill extends CMP authority to impose penalties
                                                                 against representative payees who convert benefits for


156    SSA’s FY 2000 Performance and Accountability Report
their own use, persons who use an SSN obtained              mation. Further, we supported OI in its quest to secure
through false information, and persons who use SSNs         appropriate tools to fight identity theft. Specifically,
that they know are not the true SSNs assigned to them.      we provided extensive assistance in OI’s effort to
                                                            secure permanent law enforcement authority. Such
We also reviewed numerous regulations that affect           authority will enhance OI’s ability to fight SSN abuse
SSA. One was the Health Insurance Portability and           across a broad spectrum of Federal programs.
Accountability Act of 1996 (HIPAA) privacy regula­
tions. The Department of Health and Human Services’                                      At the request of Senator
(HHS) proposed regulations to implement sections 261                                     Feinstein of California, the
through 264 of HIPAA, Public Law (P.L.) 104-191.                                         Deputy Inspector General
The regulations implement privacy and disclosure stan­                                   and several of our attorneys
dards. The types of information covered essentially                                      traveled to California to
include all medical information and the proposed regu­                                   attend an on-site hearing of
lations impact the ability to obtain medical information                                 the Senate Committee on the
in SSA disability cases. Essentially, no disclosure may                                  Judiciary, Subcommittee on
be made without patient consent, except as provided in                                   Technology, Terrorism, and
the proposed regulations. We submitted comments to          Government Information. This identity theft hearing
SSA which were included in its comments to HHS. We          was conducted in conjunction with the Los Angeles
also participated in both an interagency group and an       County Sheriff’s Department, in an effort to measure
SSA group to review the 50,000 plus responses to the        investigative support for identity theft projects. Topics
proposed regulations.                                       covered included pooling of investigative resources to
                                                            fight identity theft, and the need for comprehensive leg­
OCIG has also been a major participant in the represen­     islation to fight the identity theft problem. In response
tative payee reform debate. The Inspector General’s         to the hearing, OIG agreed to participate in a West
May 2, 2000, testimony, before the Senate Special           Coast identity theft project.
Committee on Aging, revealed several limitations in
applying CMP remedies to representative payees. Spe­        OCIG also partnered with several external entities to
cifically, the Inspector General noted that certain types   help educate the public on identity theft issues. In addi­
of benefit “conversion” cases, where representative         tion to assisting the Department of the Treasury in its
payees steal benefit payments directly from a benefi­       Identity Theft Summit in March 2000, we also began
ciary, often go unpunished. We helped to reveal this        planning for a 1-day workshop in Washington, D.C., on
problem, and to prepare common sense solutions to           identity theft prevention. The workshop involved over
close this significant loophole.                            30 speakers from the public and private sectors. The
                                                            workshop’s goal was to provide the private sector, pri­
During this reporting period, we played a major role in     vacy rights advocates, and representatives from Con­
the fight against identity theft. Working closely with OI   gress the chance to discuss identity theft prevention in
and OA, we identified several important potential solu­     an open forum. We published notice of this workshop
tions to help fight this growing problem. For example,      in the Federal Register in August of this year, at
we recommended the expansion of CMP authorities for         65 F.R. 51049 (August 22, 2000). The workshop took
the improper sale or misuse of an SSN. Additionally,        place on October 25, 2000, and will be reported on in
we helped to negotiate a Memorandum of Understand­          our next semiannual report.
ing to improve our ability to cooperate with external
law enforcement entities that require SSN-related infor­




                                                                            Inspector General’s Report to Congress   157
158   SSA’s FY 2000 Performance and Accountability Report
Office of Investigations

       he Office of Investi­                                April 1, 2000, we determined that AMD received

T      gations, which is
       comprised of 5 Head-
quarters divisions and 10

                                                            15,801 pieces of correspondence during the second half
                                                            of FY 2000.

field divisions nationwide, 
                               As AMD receives allegations, they are carefully
conducts and coordinates 
                                  reviewed to determine the most appropriate course of
investigative activities 
                                  action. Allegations come in from a number of sources
related to fraud, waste, and
                               including other law enforcement agencies, SSA
abuse in SSA’s programs
                                    employees, Congress, private citizens, and public agen­
and operations. It investi­
                                cies. These allegations may involve fraud within SSA
gates alleged wrongdoings 
                                 programs or they may fall within the jurisdiction of
by applicants, beneficia­
                                  another law enforcement agency. Allegations may also
ries, contractors, physi­
                                  affect other components of OIG, or they may involve
cians, interpreters, 
                                      other program or policy components within SSA.
representative payees, third parties, and SSA employ­
      Whatever the allegation, AMD is responsible for mak­
ees. The office frequently conducts joint investigations
   ing a timely referral of each and every allegation to the
with other Federal, State, and local law enforcement
       proper location for appropriate action.
agencies. 
                                                 In addition to processing allegations, AMD ensures that
One of the Headquarters divisions, the Allegation Man­
     the public receives useful information about SSA and
agement Division (AMD), operates the SSA Fraud Hot-
        OIG when appropriate. Each complainant who submits
line, which provides an avenue for reporting fraud, 
       an allegation by correspondence receives a written
waste, and abuse within SSA’s programs and opera­
          response from the Director. These responses help to
tions. During FY 2000, AMD Program Specialists 
            build the public’s trust by reassuring them that we
answered 90,159 telephone calls. In addition to receiv­
    received their allegation and appreciate their efforts in
ing allegations by telephone, AMD also receives allega­
    reporting fraud, waste, and abuse within our Govern­
tions via regular mail, facsimile, and electronic mail.
    ment programs. For those allegations addressing iden­
As a result of implementing a new tracking system on
       tity theft crimes, AMD goes the extra mile and provides
                                                            fact sheets and brochures suggesting security measures
                                                            each individual can take to protect themselves from
                                                            SSN misuse. This type of feedback not only reassures




                                                                            Inspector General’s Report to Congress   159
the public that their concerns have been heard, but it      identity theft allegations received by AMD to the FTC
serves as a proactive means for preventing the further­     Identity Theft Data Clearinghouse, which is the FTC’s
ance of criminal activity.                                  data base of identity theft complaints. These allega­
                                                            tions are included in a national data base that is shared
During FY 2000, over 50 percent of the allegations we       with other law enforcement agencies and approved
received involved SSN misuse and identity theft. Since      users. The sharing of these allegations will not only
the passage of the Identity Theft and Assumption Deter­     improve our ability to assist victims, but it will also
rence Act of 1998 (P.L. 105-318), we have taken a pro-      improve the law enforcement community’s effort in the
active approach in the investigation of these crimes and    detection of individuals committing identity theft
AMD has played a major role in this endeavor. This          crimes.
year, we entered into a Memorandum of Understanding
with the Federal Trade Commission’s (FTC) Bureau of         The following tables and charts summarize our investi­
Consumer Protection to refer those SSN misuse and           gative statistics for FY 2000.



                                                               Monetary                                   Non-SSA
                                                                                    SSA Funds
                                                              Achievements                                 Funds*
                                                              Scheduled
                                                                                      $12,722,135           $1,172,261
                                                              Recoveries
                                                              Fines                    $2,447,442            $722,200
                                                              Settlements/
                                                                                       $1,342,099           $6,666,100
                                                              Judgments
                                                              Restitution             $13,526,283         $63,573,805
                                                              Estimated
                                                                                    $151,060,492          $29,119,743
                                                              Savings
                                                                 TOTALS             $181,098,451        $101,254,109
                                                               Grand Total                   $282,352,560
                                                              *Non-SSA Funds represent monies attributed to other
                                                              government organizations and financial institutions that
                                                              benefit from the results of our investigative work.




                                                                  Investigative Statistics               FY 2000

                                                             Allegations Received                         92,847

                                                             Cases Opened                                  8,262

                                                             Cases Closed                                  8,051

                                                             Arrests/Indictments                           2,537

                                                             Total Convictions                             2,604

                                                                                        Criminal           1,225

                                                                                     Civil/CMP               45

                                                                                  Illegal Alien             283
                                                                                 Apprehensions

                                                                                 Fugitive Felon            1,051
                                                                                 Apprehensions



160   SSA’s FY 2000 Performance and Accountability Report
                                    Investigative Case Highlights

Our work is focused on the following seven areas of           rant, and she was located and held in custody until her
SSA’s programs and operations that have potential for         sentencing. She was finally incarcerated and ordered to
widespread fraud and abuse.                                   pay restitution of $48,670 to the vendors.

•    Employee Fraud                                           Employee Causes More Than 125 Social Security
                                                              Cards to Be Issued Illegally
•    Disability Fraud
•    SSI Eligibility Fraud                                    Our Chicago Field Division conducted a joint investiga­
                                                              tion with the FBI and uncovered an SSA employee who
•    Institutionalization                                     caused more than 125 Social Security cards to be issued
•    Payments Made to Deceased Individuals                    for another individual. Our investigation traced some
                                                              cards to other illegal activities including credit card and
•    SSN Misuse                                               bank fraud schemes, illegal work activities, and to aid a
•	   Representative Payees                                    fugitive fleeing justice. The employee who had worked
                                                              for Social Security for over 11 years admitted to her
                   Employee Fraud                             illegal activities and was incarcerated.
Employee fraud 
                                              SSA Employee and Municipal Government Employee
remains an investi­
                                          Conspire With 20 Individuals to Defraud SSA
gative priority even

though it com­
                                               Our New York Field Division, the FBI, and the U.S.
prises the fewest
                     p                      Postal Inspection Service investigated an SSA
number of allega­
                                            employee and a co-conspirator. The employee’s co­
tions and cases.
                                             conspirator was an employee of the Las Piedras Munic­
One employee
                                                 ipal Government, Las Piedras, Puerto Rico. The 2 con-
working alone or 
                                            spired with 20 individuals to illegally obtain
with co-conspirators can corrupt the computer system,
        approximately $369,085 in Social Security benefits.
cause financial losses to the Trust Fund, coerce claim-
      The investigation revealed that the Las Piedras
ants and other employees, and undermine the integrity
        employee recruited the 20 individuals to file fraudulent
of SSA’s programs. During FY 2000, we opened 85
              applications and provided some of the individuals with
new employee investigations, closed 112 employee
             fake baptismal certificates. The SSA employee ille­
investigations, and took judicial actions that resulted in
   gally accessed SSA’s system to change the individuals’
the conviction of 31 SSA employees. 
                         dates of birth and then processed the benefit applica­
                                                              tions. The employee and his co-conspirator received
The following cases highlight our investigative efforts 
     over $70,000 for their services from the 20 individuals.
in this area.
                                                The two individuals were sentenced to home detention
                                                              and supervised release.
Sixteen Vendors Not Paid for Services
                                                              Administrative Law Judge Sentenced
Based on a referral from SSA’s Office of Hearings and
Appeals (OHA) in Norfolk, Virginia, our Philadelphia          Based on a referral from the Special Counsel Staff,
Field Division and the FBI conducted a joint investiga­       OHA in Falls Church, Virginia, our Philadelphia Field
tion of an SSA employee who filed fraudulent travel           Division investigated an administrative law judge who
vouchers. Our investigators discovered that the               applied for survivor’s benefits for her daughter after the
employee submitted documentation with her travel              death of her ex-husband, who wasn’t the child’s father.
vouchers indicating that she paid several vendors for         After initially being denied benefits, she requested a
services. Our investigators established that even             reconsideration hearing and wrote on the request that
though she received the services, claimed the expenses,       she was not divorced from her husband. She also lied
and was reimbursed, she never paid 16 vendors a total         under oath at the hearing when she stated that she was
of $48,670. Our investigation also established that she       not divorced from her husband, when in fact she was.
committed bankruptcy fraud. After failing to appear at        Initially, she was awarded $7,164 in retroactive benefits
three sentencing hearings, a judge issued an arrest war-      for her daughter and $803 a month in continuing bene­
                                                              fits. As a result of our investigation, she was sentenced



                                                                              Inspector General’s Report to Congress   161
to imprisonment, fined $30,000, and ordered to perform         mental illness, but the results of the DDS examination
200 hours of community service. This matter is now             suggested otherwise. CDI investigators determined that
under appeal.                                                  she was employed as a supervisor at a fast food restau­
                                                               rant and developed sufficient information to refute her
Employee Incarcerated and Ordered to Pay $435,895              alleged mental impairment. As a result of the team’s
in Restitution                                                 investigation, SSA denied her claim.
Our New York Field Division, along with the U.S.               The Louisiana CDI team investigated a Louisiana man
Postal Inspection Service and U.S. Secret Service, con­        who faked multiple disabilities when filing an initial
ducted a joint investigation of an SSA employee based          claim for Social Security and SSI disability benefits.
on information received from Travelers Bank. The               The man claimed he was unable to work due to sei­
bank indicated that nine replacement credit cards were         zures, blurred vision, neck and back pain, and leg prob­
stolen enroute to the proper credit cardholders and acti­      lems that required the use of a cane. The man made
vated. The investigation revealed that an SSA                  inconsistent statements and had no medical documenta­
employee accessed SSA’s system and obtained personal           tion to support his claims. Consequently, his examiners
information about the actual cardholders, which was            referred the case for investigation. CDI investigators
subsequently used to activate the stolen cards. Investi­       determined that the man had received extensive physi­
gators established that the employee was associated            cal therapy that left him able to work, observed him
with activating 63 credit cards resulting in over              walking without a cane or any apparent impairment,
$400,000 in losses to Travelers Bank and four other            and located witnesses who refuted the man’s claims.
financial institutions. The employee was incarcerated          SSA denied his application for benefits.
and ordered to pay restitution of $435,895 to the
defrauded financial institutions.                              The Illinois CDI team investigated a man who faked
                                                               mental retardation in order to collect more than $34,000
                  Disability Fraud                             in SSI disability benefits since 1979. The man claimed
                                                               he was unable to work or to function independently
                                     Disability fraud alle­
                                                               because of the impairment, but examiners noted multi­
                                     gations represent 39.7
                                                               ple inconsistencies during a review of his record.
                                     percent of the allega­
                                                               Investigators determined that the subject independently
                                     tions received by our
                                                               manages his own financial affairs, functions well on his
                                     office. Instances of
                                                               own, and does not meet the criteria for mental retarda­
                                     disability fraud are
                                                               tion. SSA stopped his benefits.
                                     reported to, and inves­
                                     tigated by, our field     The New York CDI team investigated a woman who
                                     divisions nationwide.     made false statements to support an initial claim for SSI
                                     As highlighted in the     disability benefits. The woman alleged that she was
Significant Activities section of this report, OIG, in         unable to work due to a severe psychological disability
conjunction with SSA’s Office of Disability, adminis­          that prevented her from doing household chores, shop-
ters the CDI teams. SSA program savings are reported           ping, driving, having contact with others, or going out-
at a flat rate of $66,500 for initial claims that are denied   side alone. CDI investigators observed the claimant
as a result of CDI investigations, using a formula devel­      during an eligibility review, at which she clutched a
oped by the Office of Disability. When a CDI investi­          stuffed animal and was mute as her daughter answered
gation supports the cessation of an in-pay case, the SSA       questions for her. Surveillance later the same day
program savings are calculated by multiplying the              showed her conversing, traveling alone, driving, and
actual monthly benefit times 60 months.                        visiting a social club. SSA denied the claim.
The following section highlights CDI investigative             The California CDI team investigated a man who faked
cases, as well as other investigations conducted by our        mental impairments in order to collect more than
field divisions.                                               $43,400 in SSI disability benefits since 1996. The man
                                                               claimed he was housebound and unable to drive. He
CDI Case Highlights
                                                               also claimed that he could not work or perform struc­
                                                               tured tasks due to post-traumatic stress disorder, major
The Georgia CDI team investigated a Georgia woman
                                                               depression, a head injury, diminished hearing, and
who concealed work activity in order to file a false ini­
                                                               asthma. During a review, examiners became suspicious
tial claim for Social Security and SSI disability bene­
                                                               when they discovered discrepancies in his medical
fits. The woman claimed she was unable to work due to


162   SSA’s FY 2000 Performance and Accountability Report
records and referred the case for investigation. CDI         Other Disability Investigations
investigators subsequently observed the man driving a
truck and engaging in manual labor at both residential       Father and Son Convicted for Disability Fraud and
and commercial sites. SSA stopped his benefits.              Conspiracy

The Oregon CDI team investigated a man who faked             Based on a Hotline referral, our Los Angeles Field
physical impairments to file a false initial claim for       Division conducted an investigation of a father and son
Social Security disability benefits. The man claimed he      who submitted false disability applications to SSA, stat­
was unable to work due to neck, back, and associated         ing that the father had become mentally disabled and
pain and that he was unable to perform even the sim­         stopped working in October 1992. The investigation
plest daily chores and activities. Examiners suspected       revealed that the father worked as a salesman from
fraud and CDI investigators subsequently videotaped          1993 through 1999; took acting classes in Beverly
the subject bending, lifting, squatting, and engaging in     Hills, California, from 1993 through 1996; maintained a
multiple work activities that were inconsistent with his     residence in North Carolina; and had drivers’ licenses
alleged impairments and his statements to SSA. SSA           in the States of California and Texas. The investigation
denied his claim.                                            also found that the father “laundered” his earnings
                                                             through a trust account in the State of Nevada to avoid
The Missouri CDI team investigated a man who faked           showing that he actually “earned” any money. The
mental impairments in order to file a false claim for dis­   father was incarcerated and the son was sentenced to
ability benefits. The man, assisted by a friend, claimed     probation. Both defendants were ordered to pay restitu­
he was unable to work due to a mental condition that         tion of $73,116 to SSA.
left him with the “mind of a child” and unable to per-
form daily activities or to speak, except to himself and a   Psychotherapist Works Full-Time While Collecting
doll. Examiners referred this case to investigators after    Disability Benefits
they became suspicious of the man’s bizarre behavior
and the lack of a previous medical history of this condi­    Based on a referral from the Danbury, Connecticut,
tion. Investigators later observed him engaged in nor­       SSA Office, our Boston Field Division investigated an
mal conversation with others, and he later admitted to       individual who was receiving Social Security disability
investigators that he faked his impairments for financial    benefits while working full-time as a psychotherapist.
gain. SSA denied his claim.                                  The investigation established that the man, with the
                                                             assistance of his office manager, used various methods
The New Jersey CDI team investigated a woman who             to conceal his income from SSA for 9 years. The office
concealed work activity in order to collect over             manager deposited the man’s income into numerous
$30,000 in disability benefits since 1995. The woman         personal and business accounts that she had opened in
claimed she was unable to work due to a back injury she      her name only. They also made false statements to SSA
sustained while lifting boxes of pillows at work. The        during three different continuing disability reviews
woman said she could not walk without using a walker,        (CDR). The man received probation and was ordered to
was unable to lift items, and could not stand or sit for     pay restitution of $72,820 to SSA. The office manager
extended periods of time. She also stated that she could     received home detention and probation, and as part of
not drive or sit in a car for more than 45 minutes and       her plea agreement, she paid full restitution of $72,820
experienced other severe limitations in her daily activi­    to the court. The two individuals were ordered to pay
ties. Investigators placed her under surveillance, and       total restitution of $145,640.
on multiple occasions observed her selling collectibles
at flea markets, driving, lifting and carrying boxes on      Man Fraudulently Receives Benefits for Himself and
her shoulders, and jumping over obstacles. They also         Two Stepchildren
saw her loading and unloading merchandise from her           Based on a referral from the Monroe, Louisiana, SSA
van, without any apparent difficulty or benefit of assis­    Office, our Dallas Field Division investigated a man
tive devices. SSA stopped her benefits.                      who intentionally failed to notify SSA that he was
                                                             working in order to continue receiving his Social Secu­
                                                             rity disability benefits. He also collected auxiliary ben­
                                                             efits for two ex-stepchildren that were no longer living
                                                             with him. In total, he received more than $45,000 in




                                                                             Inspector General’s Report to Congress   163
benefits to which he was not entitled. He received            $38,351,014 because some individuals were found to be
home detention and was ordered to pay restitution of          ineligible for benefits. We are pursuing criminal cases
$39,244 to SSA.                                               as deemed appropriate in conjunction with the U.S.
                                                              Attorney’s Office.
Man Works Under an Alias to Receive Benefits for 12
Years                                                         In addition to this project, the following cases highlight
                                                              our investigative work in this area.
Our Philadelphia Field Division conducted an investi­
gation of a Virginia man who was receiving disability         Mother and Four Sons Conspire to Defraud SSA for
benefits and working under an alias and an invalid SSN.       Over 22 Years
When we interviewed the man, he denied that he was
the beneficiary. The investigation confirmed that the         Our Los Angeles Field Division investigated a woman
individual was the beneficiary and that he worked under       who filed false applications for SSI benefits for each of
the assumed identity from 1987 to 1999 while receiving        her four sons from 1977 to 1993. Each of the sons, fak­
Social Security disability payments. The man was              ing similar disabilities of retardation and chronic brain
incarcerated and ordered to pay restitution of $136,475       disorder, conspired with their mother to illegally obtain
to SSA.                                                       these benefits. For over 22 years, the mother coached
                                                              each son to act disabled when visited by various county
               SSI Eligibility Fraud                          welfare employees or when they visited SSA’s offices.
                                                              Our investigation found that none of the sons were dis­
                              We established the SSI Eli­     abled. All were married, had children, and led other-
                              gibility Fraud Initiative to    wise normal lives with one exception: none of the sons
                              identify ineligible SSI         had any record indicating a work history. The woman
                              recipients, stop fraudulent     and her four sons were all incarcerated and ordered to
                              payments, recover mon­          pay restitution to SSA and State/local agencies totaling
                              ies, and initiate administra­   $532,633 for their parts in this long-term scheme to
                              tive actions and criminal       fraudulently receive SSI disability and State benefits.
                              investigations when appro­
                              priate. In FY 2000, the         Woman Fraudulently Collects Over $108,540 in SSI
                              primary theme driving the       and Food Stamp Benefits
                              project continued to be
                                                              Our New York Field Division and the New York City
                              focused on identifying SSI
                                                              Bureau of Investigations conducted a joint investigation
                              recipients who may not
                                                              of a woman who collected SSI and food stamps under
                              reside in the United States,
                                                              two identities. The investigation determined that the
                              may be deceased, or may
                                                              woman collected SSI and food stamps under her true
be fictitious – and who have not had an SSA face-to-
                                                              identity, as well as a second identity from February
face interview within 1 year.
                                                              1992 until June 1997. The woman received probation
During FY 2000, we conducted a project in New York            and was ordered to pay restitution of $108,540 to SSA
in partnership with SSA that selected a sample of             and $6,888 to New York State.
15,912 SSI recipients for evaluation. Typically, this
evaluation involved SSA conducting face-to-face inter-        Woman Sentenced for Concealing Assets
views of recipients to determine their continued eligi­       The Seattle Field Division investigated a case where an
bility for SSI benefits. We reviewed all project results      individual received SSI benefits from August 1989
for potential criminal and civil case development. The        through April 1998 based upon her claims of having no
project identified 2,437 potential subjects who may           resources or income. The investigation revealed that
have been overpaid or should have had their benefits          she actually owned two houses in addition to her resi­
suspended or terminated, and 135 subjects who were            dence, a motor home, and about $90,000 in stocks dur­
deceased. We also sampled 7,945 recipients in New             ing the time she received SSI benefits. She was
Jersey in which we identified another 1,745 potential         incarcerated and ordered to pay restitution of $44,147
subjects.                                                     to SSA and $61,404 to the State of Idaho Welfare Pro-
                                                              gram.
The estimated fraud losses uncovered during the New
York and New Jersey projects amounts to $6,859,339.
The project resulted in a projected savings of




164   SSA’s FY 2000 Performance and Accountability Report
Recipient Failed to Report Marital Status
                                                                                     FY 2000
Our Chicago Field Division investigated an SSI recipi­                             Fugitive Felon
ent who failed to report to SSA that she was married in                              Statistics
order to conceal her husband’s income. She also made
false statements to SSA in order to continue receiving             Fugitives Identified             13,817
SSI benefits. The U.S. Marshals Service (USMS) and
                                                                   Fugitives Arrested                1,031
our investigators arrested her, and an additional warrant
was executed for her failure to appear for sentencing.             Overpayments                  $20,894,605
She eventually received home detention and was
ordered to pay restitution of $29,765 to SSA.                      Estimated Savings             $34,474,414

                Institutionalization                          Man Conceals Brother’s Incarceration to Continue
                                                              Receiving Benefits
                                 In most instances, the
                                 Social Security Act pro­     Our Atlanta Field Division conducted an investigation
                                 hibits SSI payments to       of a representative payee who failed to report to SSA
                                 individuals who are con-     that his brother, a disability beneficiary, was incarcer­
                                 fined or reside in a pub­    ated. The investigation established that the beneficiary
                                 lic institution for a full   was incarcerated for a felony crime from June 1991
                                 calendar month. The Act      through February 1996. The representative payee con­
                                 also prohibits Social        tinued to receive and negotiate his brother’s SSA bene­
                                 Security payments to         fits totaling $20,438. The representative payee
individuals confined in a penal institution for more than     received home detention and was ordered to pay restitu­
30 days and those individuals confined by court order to      tion of $20,438 to SSA.
an institution at public expense in connection with spe­
cific verdicts or findings in certain criminal cases.         Alleged Rapist Arrested Through National Data
                                                              Match
In addition, the Personal Responsibility and Work
Opportunity Reconciliation Act of 1996 (commonly              Our New York Field Division arrested a man who had
known as the Welfare Reform Act) amended title XVI            outstanding Federal and State arrest warrants for the
of the Social Security Act to make individuals ineligi­       alleged rape and aggravated molestation of a child. He
ble to receive SSI payments for any month during              was located through a national data match that com­
which the recipient is fleeing to avoid prosecution for a     pares the names and identifying information of current
felony, fleeing to avoid custody or confinement after         SSI recipients with Federal fugitive felon information.
conviction for a felony, or violating a condition of pro­     The subject was arrested and remanded to the USMS to
bation or parole imposed under Federal or State law.          be transported back to the State of Georgia. As a result
Additionally, the law requires that SSA furnish, upon         of our efforts, SSA suspended his SSI benefits.
written request, certain information pertaining to these
                                                              Investigators Aid in Arrest of Violent Offender
fugitive felons to Federal, State, and local law enforce­
ment officials.                                               Our New York Field Division arrested a man in October
Due to this change in the law, we initiated the Fugitive      1999 who was a violent offender wanted in New York
Felon Project with other Federal, State, and local law        State for burglary in the second degree. Our investiga­
enforcement agencies. During FY 2000, the project             tors worked together with State investigators and deter-
resulted in the following.                                    mined that the man was receiving SSI benefits. He was
                                                              arrested as he left the Federal building in Syracuse fol­
The following cases highlight selected investigative          lowing an appointment with SSA officials and was sub­
work in this area.                                            sequently turned over to local authorities. SSA stopped
                                                              the man’s SSI benefits.




                                                                              Inspector General’s Report to Congress   165
  Payments Made to Deceased Individuals                     Man Negotiated Deceased Roommate’s Check

We frequently receive 
                                     Our Philadelphia Field Division conducted an investi­
allegations about indi­
                                    gation after a concerned citizen notified SSA’s Anacos­
viduals who are ille­
                                      tia Field Office in Washington, D.C., that a disability
gally receiving Social 
                                    beneficiary died and his former roommate was negotiat­
Security payments of
                                       ing his Social Security checks. Our investigation
deceased individuals. 
                                     revealed that the beneficiary died in April 1995. The
Because of the fre­
                                        roommate used the deceased individual’s identification
quency of these refer­
                                     documents to cash the beneficiary’s checks from
rals, we implemented
                                       April 1995 to February 1999. He received home deten­
projects to identify unre­
                                 tion and was ordered to pay restitution of $28,445 to
ported deaths and those individuals who negotiate pay­
     SSA and $8,249 to a check-cashing establishment.
ments issued to deceased individuals. The following 

cases highlight some of our work related to this area.
                         SSN Misuse
Son Conceals Father’s Death for Over 2 Years                Since the passage of

                                                            the Identity Theft 

Based on a referral from the Murray, Utah, SSA Office,      and Assumption

our Denver Field Division investigated a man who con­       Deterrence Act of

tinued to receive and spend a total of $25,233 in Social    1998, we have

Security benefits intended for his deceased father.         accelerated our

From August 1995 until September 1997, he continued         focus on SSN mis­

to deceive SSA about his father’s death after SSA           use investigations due to the expanded use of the SSN

attempted to contact his father. The man, an employee       as an identifier. This expanded use provides the oppor­

of a major Utah bank, was ordered to pay three times        tunity for unscrupulous individuals to misuse SSNs to

the amount of Social Security funds deposited into his      their own advantage. The following cases highlight

account as a result of his false claims. He was also        both SSA program-related cases, as well as other SSN

ordered to pay a civil penalty of $10,000, bringing the     misuse investigations.

total he was ordered to repay to $86,019.
                                                            Program Cases
Pennsylvania Woman Sentenced for Fraudulently
Receiving $109,622 in Benefits                              Woman Claims Benefits for 18 Years for a Child That
                                                            Never Existed
Our Philadelphia Field Division conducted an investi­
gation of a woman who failed to report the death of a       Our Philadelphia Field Division received a referral
beneficiary, who was her housemate, and fraudulently        from the Salisbury, Maryland, SSA Office involving a
received $109,622 in benefits. The Norristown, Penn­        woman with multiple identities. Our investigation
sylvania, SSA District Office referred the case in 1999     determined that she received Social Security benefits
after unsuccessful attempts to contact the beneficiary      under multiple names and SSNs. In addition, she
during a review of the case. Our investigation deter-       received benefits for 18 years for a child that never
mined that the beneficiary died in 1986. The woman          existed. She was incarcerated and ordered to pay resti­
was ordered to pay restitution of $109,622 to SSA.          tution of $99,983 to SSA.

Woman Continues to Collect Deceased Mother’s                Father Uses Son’s SSN to Conceal Work Activity
Benefits for Over 7 Years
                                                            Our Chicago Field Division investigated a disability
Based on a referral from the Kingsport, Tennessee, SSA      beneficiary who worked under his son’s SSN to conceal
Office, our Atlanta Field Division investigated a           his work activity. The man admitted to making false
woman who failed to notify SSA of her mother’s death        statements to SSA to conceal his work activity in order
in March 1983. She continued to collect her mother’s        to continue his disability benefits. He pleaded guilty
Social Security payments for her own use after her          and was ordered to pay restitution of $57,918 to SSA.
mother died. The woman was incarcerated and ordered
to pay restitution of $184,859 to SSA.




166   SSA’s FY 2000 Performance and Accountability Report
Woman Receives Benefits Under Two Names and                  Nonprogram Cases
SSNs
                                                             SSNs of Over 100 High-Ranking Military Officials
An investigation by our Chicago Field Division found         Used in Bank Fraud
that a woman was receiving Social Security disability
benefits under an SSN she fraudulently obtained in           As part of a multi-agency task force, our Philadelphia
1971. She then applied for and received SSI under a          Field Division, conducted an investigation of
name and number she had obtained in 1957. When first         2 individuals who used the names and SSNs of over
questioned about receiving benefits under two names          100 high-ranking U.S. military officials, which they
and numbers, the woman claimed that the other SSN            obtained off of the Internet. They used the information
belonged to her sister who lived in her basement. When       to fraudulently obtain credit cards which they applied
she was called into the local SSA office for review, she     for over the Internet. The individuals were incarcerated
had a friend accompany her, masquerading as her non-         and ordered to pay restitution of over $287,000 to the
existent sister. The woman had been falsely receiving        companies that were victimized by the scheme.
SSI benefits since June 1980 under the SSN she
obtained in 1957. She was incarcerated and ordered to        False SSNs Used to File for Over $900,000 in Student
pay restitution of $63,084 to SSA.                           Loans

Man Collects $312,058 During Nearly 2 Decades of             Our Boston Field Division and the Department of Edu­
Fraud                                                        cation’s Office of Inspector General joined forces to
                                                             investigate an individual that submitted dozens of
Our St. Louis Field Division investigated a man who          fraudulent Federal student loan applications over a
used an alias and a false SSN to conceal his work activ­     3-year period to agencies and banks in Massachusetts.
ities and earnings for nearly 2 decades. He began            The investigation determined that the man used false
receiving Social Security disability benefits in the late    SSNs to file for over $900,000 in student loans. The
1970s. During the course of our investigation, we            man, while incarcerated and on Federal supervised
found that he obtained another SSN under an assumed          release for a 1996 conviction for a similar scheme, filed
name. He returned to work in 1980 under the assumed          the fraudulent loan applications falsely claiming to be
name and related SSN. He failed to report to SSA that        an enrolled student at foreign medical schools. The
he received substantial wages during the years 1980          man was incarcerated and ordered to pay restitution of
through 1996. He was incarcerated and ordered to pay         $350,000 to the American Student Assistance Corpora­
restitution of $312,058 to SSA.                              tion. The court also entered an order of forfeiture
                                                             against him for $159,840.
Man Uses Four Identities to Acquire Benefits Totaling
$262,279                                                     Man Misuses an SSN in Six Bankruptcy Filings

Our Los Angeles Field Division conducted an investi­         Based on a referral from the U.S. Attorney’s Office in
gation of a man who used four identities and SSNs,           Phoenix, Arizona, our Los Angeles Field Division
including the identity and SSN of his deceased stepfa­       joined forces with the FBI and the Internal Revenue
ther, to obtain SSI and Social Security benefits totaling    Service (IRS) to investigate an individual who used
$262,279. The investigation also determined that the         another individual’s SSN to file for bankruptcy. The
man made false statements to SSA in an effort to con­        individual filed six bankruptcy petitions with the U.S.
ceal other sources of income such as workers’ compen­        Bankruptcy Court using false and incomplete informa­
sation (WC) and private disability benefits. The man         tion to forestall foreclosure on rental properties he
was ordered to pay restitution of $262,279. In conjunc­      owned. The investigation further disclosed that he also
tion with our investigation and the restitution order, the   used another individual’s SSN to file insurance claims,
USMS seized a Rolls Royce Corniche, two Cadillac             apply for credit, and to title and register a vehicle. He
limousines, one Cadillac sedan, as well as jewelry, four     was incarcerated and ordered to pay the IRS $165,000.
mink coats, various antiques, and a grand piano. A lien
was also placed against his residence.                       Bank Fraud Ring Busted

                                                             Our Seattle Field Division conducted a joint investiga­
                                                             tion with the FBI of seven individuals who schemed to
                                                             defraud financial institutions out of more than $320,000
                                                             by using false identities, false SSNs, and counterfeit
                                                             checks. To start their scheme, the individuals estab-



                                                                             Inspector General’s Report to Congress   167
lished residency at various rental properties using         INS stamps, a list of SSA offices in Florida, a list of
fraudulent names and SSNs. They subsequently opened         Mail Boxes Etc. stores in Florida, and plane tickets to
bank accounts with false residential and employment         Florida. He was incarcerated and fined $3,000.
information. When landlords and bank officials tried to
verify background information, the individuals would                      Representative Payees
use each other for references on the various rental and
                                                                                                In the Significant
bank account applications. After their bank accounts
                                                                                                Activities section of
were open for a period of time, they would deposit
                                                                                                this report, we high-
counterfeit checks and withdraw cash before the banks
                                                                                                lighted our work
could detect the fraudulent checks. Six of the individu­
                                                                                                that focuses on the
als were incarcerated and all seven were ordered to pay
                                                                                                Representative
restitution of amounts ranging from $29,394 to
                                                                                                Payee Program. In
$320,022.
                                                                                                the past, our report­
Company Manager Conspires With Document                                                         ing of allegations
Vendors to Assist Illegal Workers                                                               about representative
                                                            payees has been embedded in programmatic issues.
Our Atlanta Field Division conducted a joint investiga­     Because of certain high-profile cases brought to our
tion with the Immigration and Naturalization Service        attention, we are focusing our investigative efforts on
(INS) and the Florida Department of Law Enforcement         these allegations, not only because of dollars misdi­
of several individuals who conspired to assist illegal      rected but because of the human suffering representa­
aliens in obtaining employment. The investigation           tive payee abuses cause. The following cases highlight
determined that a manager of a Florida maintenance          other significant representative payee cases.
company knowingly referred his undocumented alien
employees to known fraudulent document vendors. The         Fifteen Representative Payees Convicted as Part of
vendors altered the aliens’ passports and INS docu­         $1.5 Million Fraud Scheme
ments, making their clients appear to be authorized to
                                                            Based on referrals from the Middleburg Heights and
work in the United States. The vendors also provided
                                                            Lakewood, Ohio, SSA Offices, our Chicago Field Divi­
their clients with translation services at area Social
                                                            sion led an investigation where 50 individuals were
Security offices where they obtained SSNs using the
                                                            arrested in Ohio, Michigan, Rhode Island, Florida, New
false documents. The document vendors charged the
                                                            York, and New Jersey. The investigation identified a
individuals fees ranging from $600 to $800 for these
                                                            scheme and conspiracy where individuals faked similar
services. The manager of the maintenance company
                                                            mental and emotional disabilities and close friends or
and the document vendors were incarcerated.
                                                            family members corroborated those disabilities. Out of
Forty-seven aliens working illegally in the United
                                                            the 50 individuals, 15 were representative payees for
States were also deported.
                                                            between 1 and 4 individuals. Sentences for these indi­
Man Sentenced for Fraudulent Translator Scheme              viduals ranged from incarceration or home detention to
                                                            probation, and all have been ordered to make full resti­
Our New York Field Division, the INS, and the Depart­       tution. The estimated loss as a result of this scheme
ment of State conducted an investigation of a man who       exceeds $1.5 million.
was allegedly providing translation services for aliens
at SSA and Motor Vehicle offices. The investigation         Man Misuses $137,000 Intended for His Children
determined that the man was inserting counterfeit U.S.
                                                            Our Los Angeles Field Division investigated a man who
Visas into his alien customers’ passports. He then
                                                            applied for and received Social Security benefits for his
transported his customers to SSA and Motor Vehicle
                                                            two children and himself. He also served as representa­
offices to obtain SSN cards and drivers’ licenses using
                                                            tive payee for his children from January 1990 through
the counterfeit documents. The following items were
                                                            July 1997. However, our investigation revealed that he
seized when a search warrant was executed at his place
                                                            had not had custody of his children since 1990. The
of business: passports, counterfeit U.S. Visas, 23 blank
                                                            man admitted to investigators that he misused the bene­
counterfeit SSN cards, 5 completed counterfeit SSN
                                                            fits intended for his children and failed to notify SSA of
cards, passport photos, SSN applications, counterfeit
                                                            his children’s living arrangements. He was incarcerated
                                                            and ordered to pay restitution and fines of $64,000.
                                                            The total fraud loss to SSA was $137,484.




168   SSA’s FY 2000 Performance and Accountability Report
Representative Payee Sentenced for Misusing Funds            Man Receives Maximum Sentence for Threatening
                                                             Agents
Our Boston Field Division conducted an investigation
of a woman who was the representative payee for 23           The Eau Claire, Wisconsin, SSA Office contacted our
beneficiaries who were receiving Social Security and         Chicago Field Division to report a couple who had
SSI disability payments. The checks issued to her as         divorced in 1993 but continued to live together, posing
representative payee were mailed to her at the Salvation     as a married couple. The woman, an SSI recipient since
Army where she was employed. Several beneficiaries           1993, was overpaid more than $30,000. During an
complained to SSA that the woman was not using their         interview with two of our investigators, the man
benefits to pay their bills. Our investigation determined    became very agitated and threatened the investigators
that the woman misused more than $50,000 in benefits.        with bodily harm. Our investigators received informa­
She received home detention and was ordered to pay           tion that the man recently purchased a handgun and told
restitution of $51,200 to SSA.                               a witness that he would kill the Federal agents from
                                                             Social Security if they ever returned. He also tele­
Connecticut Representative Payee Sentenced for               phoned the Social Security office and threatened to
Misusing Funds                                               shoot another SSA employee and both investigators, as
Our Boston Field Division investigated a former direc­       well as “shoot up” the office. During a subsequent tele­
tor of a nonprofit association who misused SSA and SSI       phone conversation with one of the investigators, he
disability funds entrusted to him as representative          made 31 threats to kill both investigators and another
payee for clients of the association. The organization       SSA employee. He was incarcerated and ordered to
provided mental health services to its clients. Our          have no contact with SSA and its employees.
investigation established that the man served as repre­      Woman Ordered to Repay $105,793 for Benefits She
sentative payee for 60 individuals and had misused           Collected for a Child Not in Her Care
about $26,000 in benefits. We also found that he had
misused State funds and had committed procurement            Our Los Angeles Field Division investigated a woman
fraud against the mental health association. He              who made false statements and provided a false docu­
received home detention, a $3,600 fine, and was              ment to SSA when she filed for Social Security benefits
ordered to receive substance abuse counseling. Before        for herself and her daughter. Our investigation estab­
sentencing, he paid over $43,000 to the mental health        lished that the woman was not the child’s mother and
association as full restitution for these crimes.            she had actually “purchased” the child from Mexico
                                                             around 1986. In 1992, she gave the child away and
             Other Cases of Interest                         continued to collect $105,783 in benefits from Septem­
Couple Ordered to Pay $88,226 in Restitution to SSA          ber 1989 to March 1997. She received home detention
                                                             and was ordered to pay full restitution to SSA.
Our Los Angeles Field Division investigated a couple
                                                             Mother Negotiates Daughter’s Checks
who continued to receive Social Security benefits for
approximately 4 years after their four children were         Based on a referral from the Hobbs, New Mexico, SSA
removed from their care by the Arizona Child Protec­         Office, our Dallas Field Division investigated a woman
tive Services. Both were sentenced to probation and          who was receiving Social Security benefits on behalf of
ordered to pay restitution of $88,226 to SSA.                her daughter. Our investigation found that the woman
                                                             failed to report to SSA that her daughter was not living
Man Receives Benefits for Fictitious Individuals
                                                             with her and continued negotiating her daughter’s SSA
Our New York Field Division and the U.S. Postal              checks when her daughter was actually residing with
Inspection Service conducted an investigation of a man       her grandmother. The woman received probation and
who received Social Security benefits for fictitious         was ordered to pay restitution of $63,582 to SSA.
individuals. Our investigation determined that the man
received benefits for four fictitious children, one ficti­   Contractor Ordered to Pay Over $5 Million in
tious adult, and one deceased individual. He also            Restitution
assisted his nephew in obtaining SSI disability benefits     At the request of the U.S. Attorney’s Office in Pitts­
even though he was not disabled. He was incarcerated         burgh, Pennsylvania, our Philadelphia Field Division
and ordered to pay restitution of $46,331 to SSA. The        assisted in a joint investigation with the IRS; the FBI;
man’s nephew was incarcerated and ordered to pay res­        the Bureau of Alcohol, Tobacco and Firearms; the Envi­
titution of $3,200 to SSA.                                   ronmental Protection Agency; and the Department of



                                                                             Inspector General’s Report to Congress   169
Labor. The investigation revealed that a local bridge       the total amount of funds stolen. The man was incar­
painting contractor had diverted employee Federal           cerated and ordered to pay restitution of $5,823,429 to a
income tax withholdings. By comparing a variety of          financial institution, the States of Pennsylvania and
tax records to SSA’s records, investigators established     Ohio, and the Federal Government.




170   SSA’s FY 2000 Performance and Accountability Report
Office of Audit

       he Office of                                                             Enumeration
T      Audit con-
       ducts compre­
hensive financial

                                                            Enumeration is the process by which SSA assigns origi­
                                                            nal SSNs, issues replacement cards to people with
and performance
                                            existing SSNs, and verifies SSNs for employers and
audits of SSA pro-
                                         other Federal agencies.
grams and opera­
                                           The importance placed on SSNs as an identifier in
tions and makes
                                            today’s society provides a tempting motive for individ­
recommendations to
                                         uals to fraudulently acquire an SSN and use it for illegal
ensure that program
                                        purposes. SSN misuse may affect a victim’s ability to
objectives are achieved effectively and efficiently. OA 

                                                            receive legitimate benefits and also may harm his or her
also conducts management and program evaluations

                                                            credit ratings. In addition, the financial industry passes
that identify and recommend ways to prevent program

                                                            on the cost associated with identity theft to all of its
fraud and maximize efficiency. The office is organized

                                                            consumers.
into issue area teams that specialize in one or more of

SSA’s programs or operations as displayed in the orga­
     Most importantly, however, is that individuals also use
nization chart below.
                                      false identities to defraud SSA programs. Our work has
                                                            revealed that unscrupulous individuals can assume the
During this reporting period, we issued 65 reports with
    identity of another person who is either alive or dead
recommendations that $236,508,945 in Federal funds 
        and work under the stolen SSN while receiving disabil­
could be put to better use and identified $76,991,654 in
   ity benefits under their own SSN. Individuals also have
questioned costs. The following sections highlight

some of our most significant reviews.





                                                                            Inspector General’s Report to Congress   171
assumed the identity of another person to hide assets         In response to our recommendations, SSA agreed to
using the assumed identity in order to qualify for SSI        conduct a pilot matching agreement with New York and
under their own SSNs.                                         consider expanding the program to other States if the
                                                              New York pilot proves beneficial.
Recognizing SSA’s vulnerability to SSN misuse, we
issued the following reports.                                 Procedures for Verifying Evidentiary Documents
                                                              Submitted with Original Social Security Number
The Social Security Administration is Pursuing                Applications
Matching Agreements with New York and Other States
Using Biometric Technologies                                  Our objective was to determine whether SSA’s proce­
                                                              dures for examining evidentiary documents are effec­
                   Our objective was to assess whether        tive in ensuring the proper assignment of original SSNs.
                   the results of biometric technologies      In May 1999, we issued a Management Advisory
                   used to combat fraud and identify          Report (MAR), Using Social Security Numbers to Com­
                   ineligible recipients for social service   mit Fraud (A-08-99-42002), which outlined the role
                   programs could benefit SSA. As of          SSNs play in the commission of identity fraud crimes.
                   December 1998, 11 States used or           In that report, we also described several SSN fraud
                   had plans to adopt biometric technol­      cases that highlighted some of the vulnerabilities in
                   ogies in their social service pro-         SSA’s enumeration process, including vulnerabilities
                   grams. In general, States that have        within SSA’s document verification process. This
                   implemented biometric programs             report serves as a sequel to the MAR, provides addi­
have realized significant benefits (California – over $86     tional recommendations, and reaffirms some previous
million; Connecticut – $15 million; New York – $396           recommendations that we believe will improve the
million).                                                     integrity of SSA’s enumeration process.
We reviewed 500 sample cases from 12,615 Aid to               Of the SSNs we reviewed, 28 percent were based on
Families with Dependent Children (AFDC) cases                 invalid or inappropriate evidentiary documents. As
closed by New York for failure to cooperate with the          such, these SSNs should not have been assigned. We
State’s finger-imaging requirement from October 1995          acknowledge this sample was neither statistically
to July 1997. In our sample, we identified 64 individu­       selected nor indicative of the percentage of possible
als (13 percent) who had received Social Security or          errors within the universe of 2.66 million original SSNs
SSI disability benefits. Because SSA did not have a           assigned during the audit period. However, the results
matching agreement in place with New York, we could           of our review provide insight regarding significant vul­
not determine the propriety of the payments SSA made          nerabilities within SSA’s enumeration system. Despite
to these 64 individuals. We were also prohibited from         SSA’s efforts to address these vulnerabilities, the
pursuing matching agreements in individual cases.             Agency’s controls do not prevent individuals from
However, we estimate that, as of January 1998, about          improperly attaining SSNs with fraudulent evidentiary
$45 million in benefits were paid to approximately            documents.
1,615 individuals within the population of New York           Based on our observations at SSA field offices (FO)
State’s 12,615 terminated AFDC cases. An additional           and our analysis of the selected SSNs, we identified the
$16.3 million in benefits will be paid to individuals         following vulnerabilities that may have resulted in the
within this population between February 1998 and Feb­         acceptance of invalid evidentiary documents.
ruary 2001. We believe SSA could use the results of
New York State’s biometrics program to identify indi­         •	   SSA employees do not have adequate tools (for exam­
viduals who are inappropriately receiving benefits,                ple, real-time on-line verification mechanisms) to
thereby reducing and/or recovering any improper bene­              determine the validity of evidentiary documents.
fit payments.
                                                              •	   Current systems controls do not prevent the assign­
We recommended that SSA: (1) pursue a matching                     ment of SSNs in certain suspect circumstances (for
agreement with New York, so that the Agency can use                example, multiple SSN cards sent to common
the results of the State’s biometric technologies; and             addresses, parents claiming to have had an improba­
(2) initiate pilot reviews to assess the cost-efficiency of        bly large number of children).
matching data with other States that have used biomet­
rics in their social service programs.




172   SSA’s FY 2000 Performance and Accountability Report
•	   SSA’s emphasis on customer service discourages per­                            Earnings
     sonnel from employing security measures that might
     detect fraudulent documents because it would delay                                            An individual’s
     the enumeration process.                                                                      earnings are the
                                                                                                   basis for calculating
We recommended that SSA: (1) obtain independent                                                    Social Security ben­
verification for all alien evidentiary documents before                                            efits. SSA estab­
approving the respective SSN applications; (2) acceler­                                            lishes and maintains
ate negotiations with the INS and the State Department                                             a record of an indi­
to implement the Enumeration at Entry program; (3)                                                 vidual’s earnings for
give credit for fraud detection and development in mea­                                            use in determining
suring the performance of FOs and their employees; (4)       an individual’s entitlement to benefits and for calculat­
continue efforts and establish an implementation date        ing benefit payment amounts. For those reported earn­
for planned system controls that will interrupt SSN          ings that fail to match SSA’s name and SSN validation
assignment in certain suspect circumstances; (5) study       criteria, those items are posted to the Earnings Suspense
the impact of requiring SSN applicants to either provide     File (ESF). From 1937 through April 1999, the ESF
an actual street address or pick up their SSN cards at the   has grown to about 212 million items representing
closest SSA FO; and (6) propose legislation that dis­        about $262 billion in wages. Employer and employee
qualifies individuals who improperly attain SSNs from        reporting errors are the main causes of the file’s growth
receiving work credits for periods that they were not        and size. The ESF is an indication of reporting prob­
authorized to work or reside in the United States.           lems that must be addressed. If not addressed, these
SSA agreed with or provided an adequate response for         reporting problems could result in the beneficiaries
four of the six recommendations. However, SSA dis­           receiving less than what they are entitled to. A sum­
agreed with our recommendation to obtain independent         mary of a related report follows.
verification for all alien evidentiary documents before      The Social Security Administration’s Earnings
approving the respective SSN applications. SSA stated        Suspense File Tactical Plan and Efforts to Reduce the
that the Agency already verifies with the INS all docu­      File’s Growth and Size
ments for noncitizens applying for SSNs, except docu­
ments for those who have been in the country less than       Title II of the Social Security Act requires SSA to main­
30 days. SSA believes that delaying approval of their        tain records of wage amounts that employers pay to
SSN applications for 1 to 2 months until the INS can         individuals. To accomplish this, SSA uses the SSN to
verify their applications would result in a grave disser­    record individuals’ wages. When wage items fail to
vice to newly-arrived individuals who have legal             match SSA’s name and SSN records, they are put in the
authority to work. Instead, the Agency stated that it        ESF. Since 1990, the ESF has increased by an average
would continue to work with the INS to shorten the lag       of 5 million wage items and $17 billion annually.
time needed to update the INS systems and to have INS
collect enumeration data.                                    Six major factors hinder the reduction of the ESF’s size
                                                             and contribute to its growth.
SSA also disagreed with our recommendation to pro-
                                                             1.   Higher Agency priorities for automated systems
pose legislation that disqualifies individuals who
                                                                  development resources within SSA.
improperly attain SSNs from receiving work credits for
periods that they were not authorized to work or reside      2.	 The Agency has neither linked wage information
in the United States. SSA stated that the legislative            year-by-year to identify chronic problem employers,
proposal would be extremely difficult to administer              nor aggressively targeted for corrective action, the
because SSA cannot, on its own, determine when or if             employers who have been responsible for a dispropor­
an individual’s immigration or work status has changed.          tionate share of the ESF for several years.
SSA believed that these determinations could be made
                                                             3.	 Agency officials reported to us that some employers
only by the INS or a judicial proceeding. We asked
                                                                 contacted in a recent effort to correct and prevent
SSA to reconsider its responses to these two recommen­
                                                                 wage reporting errors were unaware of wage report­
dations.
                                                                 ing problems.
                                                             4.	 The ESF Tactical Plan does not adequately address
                                                                 industries that hire transient employees who may not
                                                                 have work authorization from the INS.



                                                                              Inspector General’s Report to Congress   173
5.    Initiatives with higher benefits require coordination     Reliability of Diagnosis Codes Contained in the Social
      with, and/or assistance from, other Federal agencies.     Security Administration’s Data Bases
      For example, SSA estimates that if the IRS imposed
      civil penalties allowed under existing law against        Our objective was to determine the impact on SSA’s
      employers who file inaccurate wage reports, it would      operations when diagnosis codes on the Master Benefi­
      reduce the file’s growth by 1.5 million wage items,       ciary Record (MBR) or Supplemental Security Record
      annually. However, at meetings with SSA officials,        (SSR) are missing, invalid, or for unestablished diag­
      the IRS was reluctant to take action.                     noses. The diagnosis code on the MBR and SSR should
                                                                refer to the basic medical condition that rendered the
6.    Existing laws and regulations are not clear in specify­   individual disabled.
      ing an employers’ right to require prospective
      employees to present SSN cards prior to hiring. In        SSA’s procedures do not ensure valid and specific codes
      addition, overlapping and/or conflicting employee         are recorded to the MBR or SSR. We estimate that 1.31
      hiring and reporting requirements among SSA, the          million MBR or SSR records did not contain diagnosis
      IRS, and the INS confuse employers.                       codes representing the medical condition related to the
                                                                individuals’ disabilities. Having diagnosis codes that
We recommended and SSA agreed to:                               do not represent specific disabilities on SSA’s records
•	    Establish a high priority on key ESF reduction initia­    affects SSA’s ability to properly select beneficiaries or
      tives in the current ESF Tactical Plan.                   recipients for CDRs and precludes SSA from identify­
                                                                ing cases mandated for redeterminations.
•	    Assign a higher priority to work with the IRS to pre-
      pare a legislative proposal to clarify employers’ right   For instance, under the Welfare Reform Act, the prior
      to see the SSN card before hiring.                        medical determinations of children had to be reviewed
                                                                if those children had certain disabilities specified in the
•	    Pursue with the IRS penalties on chronic problem          legislation. Our findings revealed that the required
      employers.                                                reviews were not performed in cases that should have
•	    Seek sanctioning authority if the IRS fails to impose     been selected for redeterminations. We estimate that at
      penalties against chronic problem employers. How-         least 3,539 recipients with incorrect codes should have
      ever, SSA believes that the IRS can more effectively      had medical redeterminations performed as required
      apply such penalties.                                     under the Welfare Reform Act. Since SSA did not per-
                                                                form these redeterminations, we estimate that at least
              Systems – Data Integrity                          $8.97 million in SSI benefits were paid incorrectly.
One of the challenges
                                          We recommended that SSA correct the diagnosis codes
facing SSA is giving the
                                       in its data bases to ensure that, in the future, all benefi­
public the service it
                                          ciaries’ disabilities are represented by valid, specific
expects during a period
                                        codes. SSA agreed to take action on most of our recom­
of increasing demands 
                                         mendations. However, we continue to believe that fur­
without a corresponding
                                        ther corrective action is necessary to ensure that
increase in staff. Demo-
                                       diagnosis codes are carried forward to new records,
graphic changes in the
                                         because SSA’s automated edits do not apply to all
Nation’s population over
                                       claims and do not preclude manual override.
the next several years will cause substantial increases in

SSA’s operational workloads. To meet this challenge,
           Implementation of Drug Addiction and Alcoholism
SSA must increase its reliance on automated systems. 
          Provisions of Public Law 104-121
The sensitivity of the data maintained and the magni­

tude of funds expended make controls in automated 
             The Social Security Act was amended on 

systems critical to the integrity of SSA programs and
          March 29, 1996, by P.L. 104-121, commonly known as 

client satisfaction.
                                           the Contract with America Advancement Act of 1996, 

                                                                to prohibit disability benefits if drug addiction and/or

To ensure the integrity of SSA’s controls over applica­
        alcoholism (DAA) is material to the finding of disabil­

tion software development and maintenance at SSA, we
           ity. The law required SSA to terminate benefits for

conducted the following reviews.
                               individuals whose disabilities were based on DAA. If

                                                                beneficiaries timely appealed their benefit terminations,

                                                                SSA was to conduct medical redeterminations by Janu­

                                                                ary 1, 1997.



174    SSA’s FY 2000 Performance and Accountability Report
In September 1998, we began an audit of SSA’s imple­          4.	 Modify its systems so that primary diagnosis codes
mentation of DAA provisions of P.L. 104-121. Our                  for DAA will no longer be accepted.
objective was to determine whether SSA identified all
                                                              In response to our report, SSA agreed with our recom­
beneficiaries and recipients for whom DAA was a con­
                                                              mendations and stated that corrective actions were initi­
tributing material fact to the finding of a disability. We
                                                              ated, and in some cases, completed. The House
found that SSA only used one criteria for identifying
                                                              Committee on the Budget, after reviewing this report,
DAA cases for review. However, using additional diag­
                                                              requested that the Inspector General provide testimony
nosis codes, we focused on 19,946 individuals whose
                                                              concerning SSA’s implementation of P.L. 104-121 on
cases we believed might be indicative of a DAA impair­
                                                              September 12, 2000. Also during September 2000,
ment. After reviewing a sample of these claims, we
                                                              SSA completed all of the medical reviews specified in
found that DAA was, in fact, the primary reason for dis­
                                                              our first three recommendations. Specifically, SSA
ability in many of these cases and we alerted SSA to
                                                              reported that it had terminated disability benefits for
that fact. The Agency disagreed with our finding and
                                                              2,683 individuals. Of the 2,683 individuals, benefits
asserted that, based upon data contained in their system,
                                                              were terminated for 339 because DAA was material to
disability determinations for 16,677 of the individuals
                                                              the finding of disability and the remaining 2,344 had
did not consider DAA material to their disability. Of
                                                              their benefits terminated because they either (1) did not
the remaining 3,269 individuals, SSA informed us that
                                                              respond to SSA’s request to come in for a CDR to ascer­
it did not have sufficient information to determine
                                                              tain if they had a disability other than DAA or (2)
whether or not DAA was material to their disability.
                                                              showed medical improvement in their disability impair­
We expressed our concerns to SSA regarding its asser­         ments. For our fourth recommendation, SSA notified
tions, and we proceeded with a review of a sample of          us that it modified its systems to preclude the primary
the 19,946 individuals who appeared to be receiving           diagnosis codes for DAA in all cases except denials.
benefits based on DAA even though the law prohibited          SSA stated that when a case is denied because of DAA
such payments. Following our review, we concluded             the use of the DAA diagnosis code is appropriate.
that SSA did not identify and terminate benefits to all
                                                              Social Security Administration’s Suitability Program
individuals where DAA was material to their disability
                                                              for Employees and Contractors (CONFIDENTIAL)
determination. We then estimated that 3,190 individu­
als were incorrectly paid $38.7 million in benefits.          Our objective was to deter-

                                                              mine whether SSA’s suit-

Additionally, we found that cases were miscoded in
                                                              ability program provides 

SSA’s systems showing DAA, even though DAA was
                                                              reasonable assurance that all 

not material to the disability determination. Based on
                                                              employees and contractors’

our review, we estimated that 14,420 individuals do not
                                                              employees undergo suitabil­

have the correct diagnosis codes, DAA indicators, or
                                                              ity reviews before they

both, on their records to show that DAA was not mate-
                                                              access SSA’s facilities and

rial to their disability determination.
                                                              sensitive information. Suit-

We made the following four recommendations to                 ability refers to a person’s 

improve the implementation of the DAA provisions of           character traits and past 

P.L. 104-121, and to help reduce SSA’s incidence of           conduct and is distinguish-

paying benefits to ineligible individuals.                    able from the person’s ability to fulfill the job qualifica­

                                                              tion requirements, such as experience, education, and 

1.   Review the 10,611 SSI cases that SSA asserted were       skills. Our audit disclosed weaknesses in SSA’s suit-

     either properly handled or miscoded and apply the        ability program which leaves SSA’s facilities and data

     provisions of P.L. 104-121, where appropriate.           vulnerable to unauthorized access.

2.   When conducting the next scheduled CDRs for the          Specifically, SSA did not consistently perform initial

     6,066 Disability Insurance (DI) cases in our extract,    suitability or background checks of employees, as

     ensure that benefits are terminated if DAA is material   required by Executive Order 10450, Security Require­

     to the finding of disability.                            ments for Government Employees. SSA had not reclas­

3.   Ensure that the 3,269 cases SSA agreed to review are     sified employee positions to a sensitivity level 

     completed, the coding corrected, and the benefits ter­   commensurate with the position’s potential for

     minated, where appropriate.                              adversely affecting the Agency’s service or its compli­

                                                              ance with the Computer Security Act of 1987.




                                                                               Inspector General’s Report to Congress   175
We made eight recommendations to SSA to improve its           Payments to Child Beneficiaries Age 18 or Over Who
suitability program to ensure access to sensitive infor­      Were Neither Students Nor Disabled
mation is appropriately limited. Our recommendations
included centralization of the suitability program under      The Social Security Act provides benefits to the chil­
a single Deputy Commissioner, development and                 dren of retired, deceased, or disabled workers. Gener­
implementation of a policy that all employees receive         ally, these children are entitled to Social Security
appropriate background checks, rewriting position             benefits until they marry or reach age 18. However,
descriptions with appropriate sensitivity levels, and         children who are full-time students may continue to
enforcing State DDS compliance with SSA’s suitability         receive benefits until they reach age 19 or complete
program. SSA agreed with most of our recommenda­              their secondary education, whichever occurs first. The
tions. However, they did not agree to centralize the          Act does not provide for benefits to child beneficiaries
suitability program under a single Deputy Commis­             over age 18 if they are neither students nor disabled.
sioner and they have not made a decision that would           We conducted this audit to determine whether SSA paid
require State DDS personnel to undergo suitability            benefits to child beneficiaries who were age 18 or over
reviews.                                                      and neither students nor disabled. Our review disclosed
                                                              that 390 (85.7 percent) of the 455 child beneficiaries in
              Program Management
                                                              our population were age 18 or over and neither students
SSA is bound by compli­
                                      nor disabled. These individuals were ineligible for
cated guidelines in admin­
                                   Social Security benefits under the Act. The remaining
istering Old-Age, Survivors
                                  65 individuals represented child beneficiaries who,
and Disability Insurance 
                                    based on subsequent information obtained by SSA,
(OASDI) and SSI pro-
                                         were entitled to benefits.
grams. This is particularly

true for SSI because, as a

means-tested program, it is 

more difficult to adminis­

ter than OASDI. OASDI

entitlement is based on gen­
                                   400
eral objectives and rela­

tively stable factors, such
                                    350
as birthdates, earnings his-

tory, and marital status.
                                      300
SSI eligibility, on the other hand, can change monthly

because of changes in income, resources, living 
               250
arrangements, and place of residency. In February 

1997, the General Accounting Office declared SSI a

                                                                200
high-risk program and this designation continues to

exist. To assist in ensuring the integrity of the SSI pro-

gram, Congress enacted the Welfare Reform Act, which
           150
requires that SSA conduct CDRs in certain instances.

The Welfare Reform Act also authorized the fundings
            100
for CDRs for FYs 1997 and 1998. SSA reports annu­

ally to Congress on its progress in conducting CDRs.
             50
OASDI programs, commonly referred to as Social

Security, provide a comprehensive package of protec­
              0
tion against the loss of earnings because of retirement,

disability, and death. Monthly cash benefits are 

financed through payroll taxes paid by workers and 

their employers and by self-employed individuals.

Social Security also provides protection for surviving 
      We found that the 390 child beneficiaries received
spouses and children. Several of our reviews about
           $435,282 in Social Security benefits to which they were
these programs are described in this section.
                not entitled. This occurred because: (1) SSA had not
                                                              programmed its automated system to terminate benefits



176   SSA’s FY 2000 Performance and Accountability Report
for these individuals, and (2) employees did not manu­          be eligible for individual State WC payments. Such
ally process the termination actions in a timely manner.        cases can create a situation where the individual worker
As of June 30, 1999, SSA established overpayments               could receive more in combined Federal and State dis­
totaling $353,740 against 281 of these individuals. The         ability benefit payments than he earned prior to becom­
remaining 109 individuals received $81,542 in overpay­          ing disabled. To prevent this occurrence, the
ments which were offset against underpayments due               regulations provide for a WC offset. In favorable
other individuals in the same family.                           Social Security DI decisions in which the claimant is
                                                                represented by an attorney, SSA must withhold out of
                                                                the claimants past due benefits and certify direct pay­
                                                                ment to the attorney, an amount equal to the smaller:
                                                                (1) 25 percent of the past-due benefits, or (2) an alter­
                                                                nate fee authorized by SSA. The complexity of the WC
$ 400,000                                                       offset calculation makes DI benefits and related attor­
                                                                ney fee payments subject to error.
$ 350,000
                     $ 353,740                                  In FY 2000 we issued two reports focusing on the integ­
                                                                rity of the WC program. In our audit, Workers’ Com­
$ 300,000                                                       pensation Unreported by Social Security Beneficiaries,
                                                                November 1999, we investigated the accuracy of indi­
$ 250,000                                                       viduals reporting WC benefits. We determined that
                                                                about one-third of the DI population did not voluntarily
$ 200,000                                                       report changes in their WC status and benefits. This
                                                                caused SSA to pay inaccurate DI benefits with an esti­
$ 150,000                                                       mated total dollar error of $325.8 million.

                                                                We also issued an audit report entitled, The Social Secu­
$ 100,000                                                       rity Administration Incorrectly Paid Attorney Fees on
                                           $ 81,542             Disability Income Cases when Workers’ Compensation
    $ 50,000                                                    Payments were Involved, March 2000. The report dis­
                                                                closed that incorrect attorney payments were made
         $0                                                     because SSA did not verify the WC benefit amounts
                                                                provided at application. Additional errors occurred
                                                                because of internal processing mistakes by SSA
                                                                employees. We estimated that, in 15 percent of WC
                                                                cases, SSA could have incorrectly paid attorney fees for
We recommended and SSA agreed to:                               a potential total dollar error of $33.8 million.

•     Modify its automated system to terminate benefits to      Fugitive Felons
      child beneficiaries at age 18 if they are neither dis­
      abled nor full-time students.                             In 1972, the SSI program was established under title
                                                                XVI of the Social Security Act to provide income to
•     Generate alerts for employees to review complex           financially needy individuals who are aged, blind, and/
      cases, recalculate benefit amounts, and adjust pay­       or disabled. Then, on August 22, 1996, Congress
      ments due other individuals in the same family, if nec­   passed the Welfare Reform Act that prohibits SSI pay­
      essary.                                                   ments to fugitive felons and parole or probation viola-
•     Evaluate the feasibility of automating benefit            tors. However, the Social Security Act was not
      increases for other individuals in the same family        similarly amended to prohibit OASDI benefits to fugi­
      when the benefits for child beneficiaries who are nei­    tives. Currently, a fugitive felon and parole or proba­
      ther students nor disabled are terminated at age 18.      tion violator is eligible for OASDI benefits, but he or
                                                                she is not eligible to receive SSI benefits.
Workers’ Compensation
                                                                We completed two reviews this year that found that
SSA pays monthly disability benefits to eligible indi­          SSA needs to increase its efforts to prevent SSI benefits
viduals who meet specific disability requirements.              from being used to finance a fugitive’s flight from jus­
Those individuals with a work related injury could also         tice, and needs to seek legislation to prohibit the use of



                                                                                Inspector General’s Report to Congress   177
OASDI funds for the same purpose. We estimate that at       In response to our draft reports, SSA agreed with our
least 24,700 fugitives were incorrectly paid at least $76   first two recommendations and is assessing the third
million in SSI benefits since August 1996. We further       recommendation. Specifically, SSA will contact the
estimate that SSA will continue to pay fugitives at least   USDA to determine the feasibility of coordinating its
$30 million annually in SSI benefits if SSA does not        efforts. SSA expects to begin receiving matching
use State fugitive files to prevent such payments. Also,    agreements, followed by data on fugitives on a regular
between August 1996 and October 12, 1999, our inves­        basis, from State and local law enforcement agencies in
tigators assisted in the arrest of 1,853 fugitive felons    the months ahead. For our third recommendation, SSA
who were receiving SSI benefits.                            was not prepared at this time to agree to pursue legisla­
                                                            tion. However, the Agency agreed to assess our recom­
Additionally, we estimate that fugitives will continue to   mendation and provide the results of its assessment.
receive at least $39 million in OASDI benefits during
the next year if legislation is not enacted to prohibit     Status of the Social Security Administration’s Updates
them. Since August 1996, we estimate that at least          to the Medical Listings
17,300 fugitives were paid at least $108 million in
OASDI payments. Approximately 40 percent of the             We performed this review to evaluate SSA’s actions to
fugitives in our review also received SSI benefits.         update the medical listings it uses to determine whether
                                                            an individual is disabled. We found that some medical
Although the OASDI program is an entitlement pro-           listings have not been updated during the last 10 years.
gram in which beneficiaries have paid into the Social       SSA attributed this delay to staff shortages, competing
Security Trust Fund, we believe that SSA should not         priorities, and research limitations. In addition, with
provide OASDI benefits to fugitive felons. These bene­      the passage of the Welfare Reform Act, SSA had a new
fit payments may finance a potentially dangerous fugi­      congressionally mandated workload of disability rede­
tive’s flight from justice.                                 terminations that needed to be completed.

Additionally, we believe that implementation of a fugi­     SSA also informed us that they have not made a com­
tive nonpayment provision in the OASDI program              prehensive revision of the adult mental disorders listing
would assist SSA in presenting a consistent message to      in the past 15 years, even though the adult mental disor­
the public of “zero tolerance for fraud and abuse.” The     ders listings are the most common basis for medical dis­
current statutory provisions are inconsistent in that       ability in initial claims filed by adults. To their credit,
fugitives are prohibited from receiving one type of         SSA has identified the medical listings that need to be
Social Security benefit, but can continue to receive a      updated; however, it has not established time frames for
second type of benefit payment. Further, while both         their completion. Setting completion dates as a goal in
OASDI and SSI benefit payments are suspended for            the Agency’s Performance Plan would not only show
prisoners, only SSI benefit payments are suspended for      SSA’s commitment to updating the medical listings but
fugitive felons. As a result, a prisoner cannot receive     would also show Congress that SSA is responding to
OASDI benefits, but a fugitive felon can.                   past criticism and treats updating listings as a priority.

Based on the results of our two reviews, we recom­          To ensure that SSA remains focused on updating all the
mended that SSA: (1) reach agreement with the U.S.          mental disorders listings, as well as enhancing the use­
Department of Agriculture (USDA) to share fugitive          fulness of future annual performance plans (APP), we
information, because fleeing felons are similarly dis­      recommended that SSA establish a performance mea­
qualified from participation in food stamp programs         sure for its initiative to update the medical listings, with
under 7 U.S.C. 2015(k); (2) reach agreement with State      a specific timetable for each of the planned phases.
agencies, which neither enter fugitive data into the
National Crime Information Center nor provide data to       In its comments to our report, SSA agreed that they
the USDA, to obtain their fugitive information in an        need to keep a focus on updating the listings from a per­
electronic format; and (3) pursue legislation prohibiting   formance perspective, but they did not agree that it
payment of OASDI benefits to fugitives similar to the       should be accomplished through the establishment of a
provisions pertaining to SSI benefits under the Personal    performance measure with specific timetables. The rea­
Responsibility and Work Opportunity Reconciliation          son behind their disagreement stems from the fact that
Act of 1996 (P.L. 104-193).                                 revisions to the medical listings are subject to several
                                                            variables, some of which are not fully in the control of
                                                            the Agency.




178   SSA’s FY 2000 Performance and Accountability Report
Since the Government Performance and Results Act             •	   Place more emphasis on initial claims representative
(GPRA) requires agencies to develop performance                   training and provide subsequent refresher training to
indicators that assess the relevant service levels and            emphasize consideration of applicable State laws
outcomes of each program activity, OIG believes that              before disallowing a claim for an out-of-wedlock
maintaining updated medical listings for assessing                child.
disability is a crucial function. Accordingly, we
continue to believe that SSA should develop and report                  SSA Performance Measures
on a measure to assess the service level and outcomes if     We developed a 3-year Work Plan (see Appendix A) to
its medical listings update activities.                      review SSA’s implementation of GPRA. To implement
                                                             this plan, every issue team in OA conducts GPRA-
Payment Accuracy Task Force Report: Title II
                                                             related reviews. One issue team dedicated to GPRA
Relationship and Dependency
                                                             reviews coordinates the work. All of the teams will
SSA issued a self-challenge to increase the payment          determine the reliability of SSA’s performance data and
accuracy rate. Through a cooperative effort between          ensure that SSA’s implementation of GPRA is in accor­
SSA and OIG, the Agency established a Payment Accu­          dance with its requirements. The following summarizes
racy Task Force. The Task Force selected title II rela­      our efforts in this area.
tionship and dependency payment errors for its FY
2000 review. From FY 1995 through FY 1998, this cat­         OIG Reviews
egory of payment error accounted for the largest portion
                                                             In FY 2000, we released seven reports related to GPRA.
of Old-Age and Survivors Insurance (OASI) overpay­
                                                             Two of the seven reports provided a broad analysis on
ment dollars, nearly $650 million or 40 percent of over-
                                                             SSA’s implementation of the law. The first, Perfor­
payment dollars as reported in SSA’s FY 1998 Annual
                                                             mance Measure Review: Survey of the Sources of the
Stewardship Report to Congress. In February, the Task
                                                             Social Security Administration’s Performance Measure­
Force charged an issue team with analyzing the sources
                                                             ment Data issued in November 1999, assessed the
and causes of these errors and producing a report with
                                                             availability of data to measure SSA’s performance. The
recommendations.
                                                             report concluded that SSA did have methods to collect
Based on the team’s analysis of error cases used for         data, which is used to report on all of its performance
SSA’s Stewardship and Index of Dollar Accuracy               indicators. The second, Performance Measure Review:
reviews and FO and Program Service Center inter-             Review of the Social Security Administration’s Fiscal
views, the issue team focused on improving accuracy of       Year 2000 Annual Performance Plan, also issued in
payments to child beneficiaries. Title II relationship       November 1999, noted that SSA’s FY 2000 APP dem­
and dependency payment errors include out-of-wed-            onstrated a commitment by SSA to comply with GPRA
lock-children, stepchildren, legally adopted children,       and meet congressional expectations for information on
student beneficiaries, common-law and deemed mar­            the Agency’s performance. However, the report did
riages, and divorce.                                         include some recommendations for improvement for
                                                             future APPs. For example, we recommended that SSA
The Task Force recommended that SSA:                         establish performance measures for all of its major
                                                             management challenges, better identify the resources
•	   Revise the Form SSA-2519 (Child Relationship State­
                                                             needed to achieve planned performance, and identify
     ment) to consider State law when determining entitle­
                                                             known performance data weaknesses within its plans.
     ment for out-of-wedlock children.
                                                             SSA agreed with our recommendations and stated that
•	   Develop supplemental tools to help with one-half sup-   it would incorporate these changes within its FY 2001
     port computations, e.g. an interactive computation      APP.
     screen supported by the Interactive Computation
     Facility, a worksheet for manual computation, and/or    The other five GPRA reports we released assessed the
     a desk guide.                                           reliability of the data used to measure specific perfor­
                                                             mance indicators. All five of the Performance Measure
•	   Conduct a study to determine the feasibility of con­    Reviews, determined the Reliability of the Data Used to
     tinuing to send Beneficiary Recontact program mail­     Measure:
     ers to children ages 15-17.
                                                             •	   the Dollar Accuracy of Old-Age and Survivors Insur­
                                                                  ance Payment Outlays, December 1999;




                                                                              Inspector General’s Report to Congress   179
•	    Welfare Reform Child Disability Reviews, March            believes the indicator appropriately measures the repre­
      2000;                                                     sentative workload even though it includes different
                                                                types of representative payee actions. However, SSA
•     Continuing Disability Reviews, June 2000;
                                                                agreed with PwC that the measurement of time it takes
•	    the Social Security Administration’s Debt Collection,     to process OASI claims and SSI claims as a perfor­
      July 2000;                                                mance measure could be affected by how quickly a
                                                                claimant provided SSA with all necessary information.
•	    Social Security Administration Employee Satisfaction
                                                                As a result, PwC recommended that certain perfor­
      with the Level of Security at Their Facility, Septem­
                                                                mance measures should be redefined so that the Agency
      ber 2000;
                                                                was not exposed to such a high degree of external fac­
We concluded that SSA reliably reported on its perfor­          tors. The Agency stated that it was comfortable with
mance for the areas addressed. However, some of the             having some measures that include elements outside of
reports highlighted SSA’s failure to maintain documen­          its control.
tation on the methods and data used to measure perfor­
mance, which would have assisted in the review of the                             Financial Audits
quality of the data. SSA agreed with these recommen­                                                  The Chief Finan­
dations that it maintain documentation related to the                                                 cial Officers Act
creation of its performance statistics.                                                               of 1990 (P.L. 101-
Contracted Work                                                                                       576), as amended,
                                                                                                      requires that the
In addition to the OIG GPRA work completed, Pricewa­                                                  Inspector General
terhouseCoopers LLP (PwC) was contracted to conduct                                                   or an independent
GPRA audits. Specifically, PwC conducted their                                                        external auditor,
reviews to determine the reliability of the data used to                                              as determined by
measure performance in six of SSA’s business pro­                                                     the Inspector Gen­
cesses. Besides issuing six individual reports, PwC             eral, audit SSA’s financial statements in accordance
also provided a summary report.                                 with the General Accounting Office’s Government
                                                                Auditing Standards.
PwC had multiple findings and issued 40 recommenda­
tions on how to improve the measurement of perfor­              We also conduct financial-related audits of SSA pro-
mance for the 6 business processes. PwC found that              grams, segments, line items, and accounts, including
SSA:                                                            related internal control. In addition, we conduct admin­
                                                                istrative audits of the State agencies and contractors
•	    lacked sufficient performance measure process docu­       receiving Federal funds for making initial and continu­
      mentation;                                                ing disability determinations for eligibility under the DI
                                                                and SSI programs and other contracts as referred by
•     had a number of data integrity deficiencies;
                                                                SSA’s Office of Acquisitions and Grants.
•	    had three measures that did not reflect a clear measure
      of performance;                                           Audit of the Social Security Administration’s Fiscal
                                                                Year 1999 Financial Statements
•	    did not clearly identify the sources of the performance
      data for all its performance measures; and                PwC performed the audit of SSA’s FY 1999 Financial
                                                                Statements. PwC’s audit report was transmitted to the
•     miscalculated three performance measures.                 Commissioner on November 19, 1999. PwC issued an
SSA believed that many of the recommendations                   unqualified opinion on the FY 1999 financial state­
offered were duplicates of those from the Financial             ments. In PwC’s opinion,
Statement audits conducted by PwC and referred back
                                                                        . . . the consolidated financial
to its previous responses to the Financial Statement
                                                                        statements audited by us . . .
audits to address these recommendations. Of the
                                                                        present fairly, in all material
remaining recommendations, SSA disagreed with two
                                                                        respects, the financial position of
of them.
                                                                        SSA at September 30, 1999, and
SSA did not consider it appropriate to divide the repre­                1998, and its consolidated net cost,
sentative payee actions performance measure into two                    changes in net position, budgetary
separate indicators, as PwC recommended. SSA                            resources and reconciliation of net


180    SSA’s FY 2000 Performance and Accountability Report
         cost to budgetary resources for the                                        Single Audits
         fiscal years then ended in
         conformity with generally accepted                   The Single Audit Act of 1984 established requirements
         accounting principles.                               for audits of States, local governments, and Native
                                                              American tribal governments that administer Federal
PwC’s audit report did identify two reportable condi­         financial assistance programs. To implement the
tions in SSA’s internal control. The control weaknesses       requirements for these audits, the Office of Manage­
identified were: (1) SSA needs to further strengthen          ment and Budget issued Circular A-128, Audits of State
controls to protect its information and (2) SSA needs to      and Local Governments, which requires State and local
complete and fully test its plan for maintaining continu­     governments receiving more than $100,000 per year in
ity of operations.                                            Federal financial assistance to have an annual financial
                                                              and compliance audit.
PwC also reported two instances of noncompliance with
laws and regulations. They were: (1) Section 221(i) of        On July 5, 1996, the President signed the Single Audit
the Social Security Act, which requires periodic CDRs         Act Amendments of 1996. The Amendments extended
for title II beneficiaries and (2) the Federal Financial      the statutory audit requirement to nonprofit organiza­
Management Improvement Act of 1996 (FFMIA) for                tions and revised various provisions of the 1984 Single
the cumulative effect of the two internal control weak­       Audit Act including raising the dollar threshold for
nesses listed above.                                          requiring a single audit to $300,000 in Federal awards
                                                              expended. As a result, the Office of Management and
SSA agreed with all of the findings and recommenda­           Budget rescinded Circular A-128 and issued revised
tions, except for the one pertaining to FFMIA. SSA            Circular A-133, Audits of States, Local Governments
does not feel that the two internal control weaknesses        and Non-Profit Organizations, to implement the amend­
are instances of noncompliance with FFMIA.                    ments. We review the quality of these audits, assess the
                                                              adequacy of the entity’s management of Federal funds,
                                                              and report single audit findings to SSA for audit resolu­
                                                              tion. The following table summarizes the single audits
                                                              issued in FY 2000.


     State/DDS/
   Commonwealth               FY Ended             Findings         Recommendations                Questioned Costs
      Audited

 Alabama                 September 30, 1998              2                   2                              $0

 Arizona                 June 30, 1998                   1                   1                              $0

 Arkansas                September 30, 1997              1                   1                            $5,329

 Delaware                June 30, 1998                   1                   1                              $0
 Kentucky                June 30, 1999                   1                   1                              $0

 Louisiana               June 30, 1998                   1                   1                              $0

 Minnesota               June 30, 1998                   3                   1                              $0

 Mississippi             June 30, 1998                   1                   3                     Not Yet Determined

 New York                March 31, 1997                  4                   4                              $0

 New York                March 31, 1998                  6                   6                              $0

 Pennsylvania            June 30, 1998                   9                   6                              $0

 Rhode Island            June 30, 1999                   2                   2                              $0

 Texas                   August 31, 1998                 1                   1                              $0



                                                                                 Inspector General’s Report to Congress   181
In addition to the single audits reviewed, we issued a      1.   Adhere to the terms of the Cash Management
roll-up report that includes findings for State single           Improvement Act agreement;
audits for Fiscal Year 1997.
                                                            2.	 Follow procurement instructions established by SSA
Management Advisory Report: State Fiscal Year 1997              and the State;
Single Audit Findings: Roll-up Report                       3.   Obtain discounted services when competitively con­
The objective of this report was to identify areas of            tracting for consultative examinations (CE);
internal control weaknesses reported in DDS financial       4.   Implement controls to prevent unauthorized computer
audits covering the State FY 1997. To accomplish our             access;
objective, we compiled and categorized DDS findings
reported for 14 States in their State FY 1997 single        5.   Develop a formal contingency plan to prevent disrup­
audits. Our analysis of the 14 State FY 1997 single              tion of services in the event of a disaster;
audit reports disclosed similar deficiencies in the fol­    6.   Maintain complete and accurate equipment inventory
lowing categories: cash management, procurement,                 records and perform periodic physical inventories;
equipment and real property management, reporting,
and allowable costs. The findings relate to DDS’ non-       7.   Implement effective procedures for preparing,
compliance with Federal requirements because of                  reviewing, approving, and timely reporting of infor­
weaknesses in internal controls.                                 mation on the Report of Obligations, the Time Report
                                                                 of Personal Services, and the Cost Effectiveness Mea­
The nature and frequency of the findings, reported in            surement System Data Reporting Form;
State FY 1997 single audits, require SSA’s attention to
                                                            8.   Ensure that costs charged to SSA benefit the program
improve DDS operations. The noncompliance with
                                                                 and are properly authorized and documented;
Federal requirements is attributed to SSA’s limited
internal control emphasis and guidance to DDSs. SSA         9.   Ensure CE fees do not exceed the highest rates paid
should be proactive in providing internal control guid­          by Federal or other State agencies for the same or
ance to DDSs. To do so, we recommended, and SSA                  similar types of service; and
agreed, to provide the following instructions to DDSs:
                                                            10. Adhere to the fees in the State approved CE fee
                                                                schedule.




182   SSA’s FY 2000 Performance and Accountability Report
Resolving Office of the Inspector General
Recommendations
 Reports With Questioned Costs for the Reporting Period October 1, 1999
                       Through March 31, 2000
The following charts summarize SSA’s responses to OIG’s recommendations for the recovery or redirection of ques­
tioned and unsupported costs. Questioned costs are those costs that are challenged because of a violation of law,
regulation, etc. Unsupported costs are those costs that are questioned because they are not justified by adequate
documentation. This information is provided in accordance with the Supplemental Appropriations and Recission
Act of 1980 (P.L. 96-304) and the Inspector General Act of 1978, as amended.


                                                                                  Number               Value Questioned                Value Unsupported

 A. For which no management decision had been                                          6a                        $79,337,819                            $85,831
 made by the commencement of the reporting period.

 B. Which were issued during the reporting period.                                     3b                            $108,410                                      $0

                          Subtotal (A+B)                                                9                       $79,446,229                             $85,831

 Less:

 C. For which a management decision was made                                           4c                            $826,628                           $41,933
 during the reporting period:
    i. Dollar value of disallowed costs.                                                4                            $826,628                                      $0

    ii. Dollar value of costs not disallowed.                                           1                                      $0                       $41,933

 D. For which no management decision had been                                          5d                        $78,619,601                            $43,898
 made by the end of the reporting period.
    a. Review of Administrative Costs Claimed for Fiscal Year 1994 by the New Jersey Department of Labor (A-02-95-00002), June 20, 1997; Audit of Administrative
    Costs Claimed by the Ohio Rehabilitation Services Commission for Its Bureau of Disability Determination (A-13-98-51007), September 24, 1999; Audit of Costs
    Claimed by the Center for Addictive Behaviors, Inc. on the Social Security Administration’s Contract Number 600-95-22671 (A-13-98-51041),
    September 24, 1999; Audit of Administrative Costs Claimed by the Delaware Disability Determination Services (A-13-98-52015), September 24, 1999; Waivers
    Granted for Title II Overpayments Exceeding $500 (A-09-97-61005), September 27, 1999; School Attendance by Child Beneficiaries Over Age 18
    (A-09-97-61007), September 27, 1999.

    b. See Reports with Questioned Costs on page 190 of this report.

    c. Audit of Administrative Costs Claimed by the Ohio Rehabilitation Services Commission for Its Bureau of Disability Determination (A-13-98-51007),
    September 24, 1999; Audit of Administrative Costs Claimed by the Delaware Disability Determination Services (A-13-98-52015), September 24, 1999 - This
    report contained dollars that were disallowed and not disallowed; Workers’ Compensation Unreported by Social Security Beneficiaries (A-04-98-64002),
    December 6, 1999; The Social Security Administration Incorrectly Paid Attorney Fees on Disability Income Cases when Workers’ Compensation Payments were
    Involved (A-04-98-62001), March 8, 2000.

    d. Review of Administrative Costs Claimed for Fiscal Year 1994 by the New Jersey Department of Labor (A-02-95-00002), June 20, 1997; Audit of Costs Claimed
    by the Center for Addictive Behaviors, Inc. on the Social Security Administration’s Contract Number 600-95-22671 (A-13-98-51041), September 24, 1999; Waiv­
    ers Granted for Title II Overpayment Exceeding $500 (A-09-97-61005), September 27, 1999; School Attendance by Child Beneficiaries Over Age 18
    (A-09-97-61007), September 27, 1999; Single Audit of the Arkansas Disability Determination Services for the Fiscal Year Ended September 30, 1997
    (A-77-99-00014), November 1, 1999.




                                                                                                            Inspector General’s Report to Congress                 183
      Reports With Questioned Costs for the Reporting Period April 1, 2000 

                         Through September 30, 2000


                                                                                          Number        Value Questioned                Value Unsupported

 A. For which no management decision had been made                                          5a                    $78,619,601                            $43,898
 by the commencement of the reporting period.
 B. Which were issued during the reporting period.                                          4b                   $76,883,244c                                       $0

                              Subtotal (A+B)                                                9                  $155,502,845                              $43,898

 Less:

 C. For which a management decision was made                                                4d                    $74,354,038                            $43,898
 during the reporting period:
       i. Dollar value of disallowed costs.                                                 4e                    $74,352,883                            $32,065

       ii. Dollar value of costs not disallowed.                                            2f                            $1,155                          $11,833

 D. For which no management decision had been made                                          5g                    $81,148,807                                       $0
 by the end of the reporting period.
      a. Review of Administrative Costs Claimed for Fiscal Year 1994 by the New Jersey Department of Labor (A-02-95-00002), June 20, 1997; Audit of Costs Claimed
      by the Center for Addictive Behaviors, Inc. on the Social Security Administration’s Contract Number 600-95-22671 (A-13-98-51041), September 24, 1999; Waiv­
      ers Granted for Title II Overpayments Exceeding $500 (A-09-97-61005), September 27, 1999; School Attendance by Child Beneficiaries Over Age 18
      (A-09-97-61007), September 27, 1999; Single Audit of the Arkansas Disability Determination Services for the Fiscal Year Ended September 30, 1997
      (A-77-99-00014), November 1, 1999.

      b. See Reports with Questioned Costs on page 190 of this report.

      c. This amount is subject to change since the value questioned for the Single Audit of the State of Mississippi for the Fiscal Year Ended June 30, 1998
      (A-77-00-00006), August 31, 2000, has not yet been determined.

      d. Two reports contained dollars that were disallowed and dollars not disallowed.

      e. Audit of Costs Claimed by the Center for Addictive Behaviors, Inc. on the Social Security Administration’s Contract Number 600-95-22671 (A-13-98-51041),
      September 24, 1999; School Attendance by Child Beneficiaries Over Age 18 (A-09-97-61007), September 27, 1999; Single Audit of the Arkansas Disability De-
      termination Services for the Fiscal Year Ended September 30, 1997 (A-77-99-00014), November 1, 1999; Payments To Child Beneficiaries Age 18 or Over Who
      Were Neither Students Nor Disabled (A-09-99-63008), May 18, 2000.

      f. Audit of Costs Claimed by the Center for Addictive Behaviors, Inc. on the Social Security Administration’s Contract Number 600-95-22671 (A-13-98-51041),
      September 24, 1999; Single Audit of the Arkansas Disability Determination Services for the Fiscal Year Ended September 30, 1997 (A-77-99-00014),
      November 1, 1999.

      g. Review of Administrative Costs Claimed for Fiscal Year 1994 by the New Jersey Department of Labor (A-02-95-00002), June 20, 1997; Waivers Granted for
      Title II Overpayments Exceeding $500 (A-09-97-61005), September 27, 1999; Costs Claimed by American Institutes for Research on the Social Security Admin­
      istration’s Contract Number 600-97-32018 (A-15-00-23004), August 14, 2000; Identification of Fugitives Receiving Supplemental Security Income Payments
      (A-01-98-61013), August 28, 2000; Single Audit of the State of Mississippi for the Fiscal Year Ended June 30, 1998 (A-77-00-00006), August 31, 2000.




184    SSA’s FY 2000 Performance and Accountability Report
Reports With Recommendations That Funds Be Put to Better Use for the
      Reporting Period October 1, 1999 Through March 31, 2000
The following charts summarize SSA’s responses to our recommendations that funds be put to better use through
cost avoidances, budget savings, etc.


                                                                                                                   Number                     Dollar Value

 A. For which no management decision had been made by the                                                               7a                         $269,716,442
 commencement of the reporting period.

 B. Which were issued during the reporting period.                                                                      4b                        $170,516,955c

                                         Subtotal (A+B)                                                                11                         $440,233,397
 C. For which a management decision was made during the reporting
 period.

   i. Dollar value of recommendations that were agreed to by
 management.

        (a) Based on proposed management action.                                                                        6d                         $178,119,695

        (b) Based on proposed legislative action.                                                                       1e                         $125,000,000

                                         Subtotal (a+b)                                                                 7                          $303,119,695

    ii. Dollar value of costs that were not agreed to by management.                                                    4f                           $99,695,976

                                          Subtotal (i+ii)                                                              11                         $402,815,671

 D. For which no management decision had been made by the end of he                                                     1g                           $37,417,726
 reporting period.
    a. Management Advisory Report: Welfare Reform Childhood Redetermination Accuracy (A-01-98-62012), March 3, 1999; Administrative Costs Claimed at the
    Missouri Disability Determination Services (A-07-97-51006), May 17, 1999; Use of Plans for Achieving Self-Support to Obtain Supplemental Security Income
    Benefits (A-01-98-61006), September 20, 1999; Audit of Administrative Costs Claimed by the Ohio Rehabilitation Services Commission for Its Bureau of Disabil­
    ity Determination (A-13-98-51007), September 24, 1999; Waivers Granted for Title II Overpayments Exceeding $500 (A-09-97-61005), September 27, 1999;
    School Attendance by Child Beneficiaries Over Age 18 (A-09-97-61007), September 27, 1999; Review of Controls Over Nonwork Social Security Numbers
    (A-08-97-41002), September 29, 1999.

    b. See Reports with Funds Put to Better Use on page 191 of this report.

    c. This dollar amount has been modified because of developments that occurred after the issuance of our reports entitled, Effectiveness of Obtaining Records to
    Identify Prisoners (A-01-94-02004), May 10, 1996; and Effectiveness of the Social Security Administration’s Procedures to Process Prisoner Information, Sus­
    pend Payments and Collect Overpayments (A-01-96-61083), June 24, 1997. SSA’s Chief Actuary estimated a cost avoidance of about $3.4 billion over 7 years
    with $125 million to be realized semiannually from 1995 to 2001.

    d. Administrative Costs Claimed at the Missouri Disability Determination Services (A-07-97-51006), May 17, 1999; Audit of Administrative Costs Claimed by
    the Ohio Rehabilitation Services Commission for Its Bureau of Disability Determination (A-13-98-51007), September 24, 1999; School Attendance by Child Ben­
    eficiaries Over Age 18 (A-09-97-61007), September 27, 1999; The Social Security Administration’s Controls over Impairment-Related Work Expense Income
    Exclusions (A-01-98-61010), December 20, 1999; The Social Security Administration’s Procedures for Presumptive Disability Payments (A-01-98-21005),
    March 2, 2000; The Social Security Administration Incorrectly Paid Attorney Fees on Disability Income Cases when Workers’ Compensation Payments were
    Involved (A-04-98-62001), March 8, 2000.

    e. See footnote c.

    f. Management Advisory Report: Welfare Reform Childhood Redetermination Accuracy (A-01-98-62012), March 3, 1999; Use of Plans for Achieving Self-Sup-

    port to Obtain Supplemental Security Income Benefits (A-01-98-61006), September 20, 1999; Review of Controls Over Nonwork Social Security Numbers

    (A-08-97-41002), September 29, 1999; Reliability of Diagnosis Codes Contained in the Social Security Administration’s Data Bases (A-01-99-61001),

    March 14, 2000.


    g. Waivers Granted for Title II Overpayments Exceeding $500 (A-09-97-61005), September 27, 1999.




                                                                                                              Inspector General’s Report to Congress                  185
Reports With Recommendations That Funds Be Put to Better Use for the 

     Reporting Period April 1, 2000 Through September 30, 2000


                                                                                                                      Number                      Dollar Value

 A. For which no management decision had been made by the                                                                  1a                            $37,417,726
 commencement of the reporting period.
 B. Which were issued during the reporting period.                                                                         5b                      $1,120,291,990c
                                           Subtotal (A+B)                                                                  6                       $1,157,709,716

 C. For which a management decision was made during the reporting
 period.

   i. Dollar value of recommendations that were agreed to by
 management.
          (a) Based on proposed management action.                                                                         5d                          $955,645,106

          (b) Based on proposed legislative action.                                                                        1e                          $125,000,000

                                            Subtotal (a+b)                                                                 6                       $1,080,645,106

      ii. Dollar value of costs that were not agreed to by management.                                                     0                                              $0

                                            Subtotal (i+ii)                                                                6                       $1,080,645,106

 D. For which no management decision had been made by the end of the                                                       2f                            $77,064,610
 reporting period.
      a. Waivers Granted for Title II Overpayments Exceeding $500 (A-09-97-61005), September 27, 1999.

      b. See Reports with Funds Put to Better Use on page 191 of this report.

      c. These dollars include additional amounts recognized by SSA that relate to audit reports issued in prior reporting periods. SSA performed an analysis on a uni­
      verse of 112,230 workers’ compensation cases in response to our report entitled, Effects of State Awarded Workers’ Compensation Payments on Social Security
      Benefits (A-04-96-61013), September 30, 1998; SSA estimated about $1.331 billion in payment errors, which is $804,300,000 more than the OIG cited in its report.
      Also, SSA estimated an additional cost avoidance of $125 million, semiannually, relating to OIG reports entitled, Effectiveness of Obtaining Records to Identify
      Prisoners (A-01-94-02004), May 10, 1996; and Effectiveness of the Social Security Administration’s Procedures to Process Prisoner Information, Suspend Pay­
      ments and Collect Overpayments (A-01-96-61083), June 24, 1997.

      d. Effects of State Awarded Workers’ Compensation Payments on Social Security Benefits (A-04-96-61013), September 30, 1998; Implementation of Drug Addic­
      tion and Alcoholism Provisions of Public Law 104-121 (A-01-98-61014), May 12, 2000; Identification of Fugitives Receiving Supplemental Security Income Pay­
      ments (A-01-98-61013), August 28, 2000; Conversion of Benefits for Spouses After the Death of a Wage Earner (A-09-99-62009), September 27, 2000; Review
      of Controls Over Processing Income Alerts Which Impact Supplemental Security Income Payments (A-05-98-21002), September 28, 2000.

      e. See footnote c.

      f. Waivers Granted for Title II Overpayments Exceeding $500 (A-09-97-61005), September 27, 1999; Old-Age, Survivors and Disability Insurance Benefits Paid
      to Fugitives (A-01-00-10014), August 29, 2000.




186     SSA’s FY 2000 Performance and Accountability Report
Reports Issued from October 1, 1999 Through
September 30, 2000
                        Reports With Nonmonetary Findings


                                                                                                    Report
    Date Issued                                      Title
                                                                                                    Number

November 9, 1999    Review of Internal Controls Over the Processing of One-Check-Only
                                                                                                 A-05-97-61001
                    Payments (CONFIDENTIAL)

November 19, 1999   Audit of the Social Security Administration’s Fiscal Year 1999
                                                                                                 A-15-99-51008
                    Financial Statements

November 22, 1999   Performance Measure Review: Survey of the Sources of the Social
                                                                                                 A-02-98-01004
                    Security Administration’s Performance Measure Data
November 22, 1999   Selected Procedures Used in the Social Security Administration’s
                                                                                                 A-13-98-91026
                    Asbestos Management Program for Its Main Complex

November 26, 1999   Beneficiaries Expressing Interest in Vocational Rehabilitation Services
                                                                                                 A-01-97-61004
                    Through a Continuing Disability Review Mailer

November 26, 1999   Audit of Quality Review Process at the Office of Central Operations          A-03-97-31002

November 29, 1999   Review of the Social Security Administration’s Fiscal Year 2000
                                                                                                 A-02-99-03007
                    Annual Performance Plan

December 20, 1999   Performance Measure Review: Reliability of the Data Used to Measure
                    the Dollar Accuracy of Old-Age and Survivors Insurance Payment               A-02-98-01001
                    Outlays

January 3, 2000     Support Services for Contingency Planning at the Social Security
                                                                                                 A-13-98-12039
                    Administration’s National Computer Center (CONFIDENTIAL)

January 6, 2000     Single Audit of the State of New York for the Fiscal Year Ended
                                                                                                 A-77-00-00001
                    March 31, 1997

January 19, 2000    The Social Security Administration is Pursuing Matching Agreements
                                                                                                 A-08-98-41007
                    with New York and Other States Using Biometric Technologies

January 31, 2000    Management Advisory Report: The Social Security Administration’s
                                                                                                 A-13-98-12041
                    Warning Banner Implementation
February 7, 2000    The Social Security Administration’s Earnings Suspense File Tactical
                                                                                                 A-03-97-31003
                    Plan and Efforts to Reduce the File’s Growth and Size

March 1, 2000       Performance Measure Review: Reliability of the Data Used to Measure
                                                                                                 A-01-99-91003
                    Welfare Reform Childhood Disability Reviews

March 20, 2000      Performance Measure Review: Reliability of the Data Used to Measure
                                                                                                 A-02-99-01009
                    Social Security Number Request Processing




                                                                       Inspector General’s Report to Congress   187

                                                                                                   Report
      Date Issued                                           Title
                                                                                                   Number

 March 20, 2000          Performance Measure Review: Reliability of the Data Used to Measure
                                                                                                 A-02-99-01010
                         Representative Payee Actions

 March 20, 2000          Performance Measure Review: Reliability of the Data Used to Measure
                                                                                                 A-02-99-01011
                         Personal Earnings and Benefit Estimate Statement Processing

 March 20, 2000          Performance Measure Review: Reliability of the Data Used to Measure
                         the Timeliness of Supplemental Security Income Aged Claims              A-02-99-11005
                         Processing

 March 21, 2000          Performance Measure Review: Reliability of the Data Used to Measure
                                                                                                 A-02-99-11006
                         the Timeliness of Old-Age and Survivors Insurance Claims Processing

 March 21, 2000          Performance Measure Review: Reliability of the Data Used to Measure
                                                                                                 A-02-99-01008
                         the Posting of Earnings Items

 March 21, 2000          Performance Measure Review: Summary of PricewaterhouseCoopers’,
                                                                                                 A-02-00-20024
                         LLP Review of the Social Security Administration’s Performance Data

 April 28, 2000          Second Annual Audit of the MOU Between SSA and DOL/ESA/
                         DCMWC’s Program on Handling Part B Black Lung Claims Final              A-15-00-20037
                         Letter Report No. 17-00-009-04-433

 June 5, 2000            PricewaterhouseCoopers LLP Management Letter, Parts 1 and 2 on the
                         Audit of the Fiscal Year 1999 Financial Statements of the Social        A-15-00-20048
                         Security Administration

 June 19, 2000           Review of the Social Security Administration’s Internal Controls over
                                                                                                 A-13-97-91018
                         International Merchant Purchase Authorization Card Payments

 June 28, 2000           Performance Measure Review: Reliability of the Data Used to Measure
                                                                                                 A-01-99-91002
                         Continuing Disability Reviews

 June 30, 2000           Social Security Administration’s Suitability Program for Employees
                                                                                                 A-14-99-12006
                         and Contractors (CONFIDENTIAL)

 July 7, 2000            Single Audit of the State of Texas for the Fiscal Year Ended
                                                                                                 A-77-00-00002
                         August 31, 1998

 July 13, 2000           Single Audit of the State of Alabama for the Fiscal Year Ended
                                                                                                 A-77-00-00003
                         September 30, 1998

 July 28, 2000           Improving the Usefulness of the Social Security Administration’s
                                                                                                 A-09-98-61011
                         Death Master File

 July 28, 2000           Performance Measure Review: Reliability of the Data Used to Measure
                                                                                                 A-15-99-51006
                         the Social Security Administration’s Debt Collection

 August 4, 2000          Office of Hearings and Appeals Time and Attendance Policies and
                                                                                                 A-06-98-91010
                         Procedures at Hearing Offices

 August 7, 2000          Single Audit of the State of Arizona for the Fiscal Year Ended
                                                                                                 A-77-00-00004
                         June 30, 1998

 August 14, 2000         Inspection of the Embassy Sanaa, Yemen                                  A-77-00-00005




188   SSA’s FY 2000 Performance and Accountability Report
                                                                                                     Report
   Date Issued                                        Title
                                                                                                     Number

August 25, 2000      Status of the Social Security Administration’s Updates to the Medical
                                                                                                  A-01-99-21009
                     Listings

August 31, 2000      Single Audit of the State of Louisiana for the Fiscal Year Ended
                                                                                                  A-77-00-00007
                     June 30, 1998

August 31, 2000      Single Audit of the Commonwealth of Pennsylvania for the Fiscal Year
                                                                                                  A-77-00-00008
                     Ended June 30, 1998

September 14, 2000   Effectiveness of Internal Controls in the Modernized Enumeration
                                                                                                  A-08-97-41003
                     System

September 15, 2000   Management Advisory Report: Administration of TOP SECRET at the
                                                                                                  A-14-99-11001
                     National Computer Center (CONFIDENTIAL)

September 15, 2000   Single Audit of the State of Minnesota for the Fiscal Year Ended
                                                                                                  A-77-00-00009
                     June 30, 1998

September 15, 2000   Single Audit of the State of New York for the Fiscal Year Ended
                                                                                                  A-77-00-00010
                     March 31, 1998

September 15, 2000   Single Audit of the State of Delaware for the Fiscal Year Ended
                                                                                                  A-77-00-00011
                     June 30, 1998

September 19, 2000   Procedures for Verifying Evidentiary Documents Submitted with
                                                                                                  A-08-98-41009
                     Original Social Security Number Applications

September 19, 2000   Status of Social Security Administration’s Implementation of Selected
                     Recommendations Reported in the Fiscal Year 1998 Management                  A-15-99-52020
                     Letter - Part 2

September 20, 2000   Single Audit of the State of Rhode Island for the Fiscal Year Ended
                                                                                                  A-77-00-00012
                     June 30, 1999

September 20, 2000   Single Audit of the Commonwealth of Kentucky for the Fiscal Year
                                                                                                  A-77-00-00013
                     Ended June 30, 1999

September 22, 2000   Management Advisory Report: State Fiscal Year 1997 Single Audit
                                                                                                  A-07-99-84007
                     Findings: Roll-up Report

September 28, 2000   Controls Over Administrative Law Judges’ Decisions
                                                                                                  A-06-00-10026
                     (CONFIDENTIAL)

September 28, 2000   Performance Measure Review: Reliability of the Data Used to Measure
                     Social Security Administration Employee Satisfaction with the Level of       A-13-00-10025
                     Security at Their Facility

September 28, 2000   Management Advisory Report: Implementation of the Social Security
                                                                                                  A-14-99-92009
                     Administration’s Integrated Human Resources System

September 29, 2000   Management Advisory Report: Contact Stations                                 A-04-99-01001

September 29, 2000   Payment Accuracy Task Force: Title II Relationship and Dependency            A-16-00-10040




                                                                        Inspector General’s Report to Congress   189
Reports With Questioned Costs for the Reporting Period October 1, 1999

                    Through September 30, 2000


                                                                                                     Dollar
      Date Issued                                 Title                           Report Number
                                                                                                    Amount

 November 1, 1999       Single Audit of the Arkansas Disability Determination
                        Services for the Fiscal Year Ended                         A-77-99-00014        $5,329
                        September 30, 1997

 December 6, 1999       Workers’ Compensation Unreported by Social
                                                                                   A-04-98-64002       $85,843
                        Security Beneficiaries

 March 8, 2000          The Social Security Administration Incorrectly Paid
                        Attorney Fees on Disability Income Cases when              A-04-98-62001       $17,238
                        Workers’ Compensation Payments were Involved

 May 18, 2000           Payments to Child Beneficiaries Age 18 or Over Who
                                                                                   A-09-99-63008      $435,282
                        Were Neither Students Nor Disabled

 August 14, 2000        Costs Claimed by American Institutes for Research on
                        the Social Security Administration’s Contract Number       A-15-00-20034       $29,494
                        600-97-32018

 August 28, 2000        Identification of Fugitives Receiving Supplemental
                                                                                   A-01-98-61013   $76,418,468
                        Security Income Payments

 August 31, 2000        Single Audit of the State of Mississippi for the Fiscal                      To Be
                                                                                   A-77-00-00006
                        Year Ended June 30, 1998                                                   Determined

       TOTAL                                                                                       $76,991,654




190   SSA’s FY 2000 Performance and Accountability Report
      Reports With Funds Put to Better Use for the Reporting Period 

              October 1, 1999 Through September 30, 2000


                                                                                                        Dollar
   Date Issued                              Title                             Report Number
                                                                                                       Amount

December 20, 1999    The Social Security Administration’s Controls over
                     Impairment-Related Work Expense Income                     A-01-98-61010           $1,977,891
                     Exclusions

March 2, 2000        The Social Security Administration’s Procedures for
                                                                                A-01-98-21005             $713,156
                     Presumptive Disability Payments

March 8, 2000        The Social Security Administration Incorrectly Paid
                     Attorney Fees on Disability Income Cases when              A-04-98-62001          $33,852,529
                     Workers’ Compensation Payments were Involved

March 14, 2000       Reliability of Diagnosis Codes Contained in the
                                                                                A-01-99-61001           $8,973,379
                     Social Security Administration’s Data Bases

May 12, 2000         Implementation of Drug Addiction and Alcoholism
                                                                                A-01-98-61014          $38,744,244
                     Provisions of Public Law 104-121

August 28, 2000      Identification of Fugitives Receiving Supplemental
                                                                                A-01-98-61013          $29,856,060
                     Security Income Payments

August 29, 2000      Old-Age, Survivors and Disability Insurance
                                                                                A-01-00-10014          $39,646,884
                     Benefits Paid to Fugitives

September 27, 2000   Conversion of Benefits for Spouses After the Death
                                                                                A-09-99-62009          $22,300,000
                     of a Wage Earner
September 28, 2000   Review of Controls Over Processing Income Alerts
                     Which Impact Supplemental Security Income                  A-05-98-21002          $60,444,802
                     Payments

     TOTAL                                                                                           $236,508,945




                                                                          Inspector General’s Report to Congress   191

192   SSA’s FY 2000 Performance and Accountability Report
Appendices





              Inspector General’s Report to Congress   193

194   SSA’s FY 2000 Performance and Accountability Report
Appendix A

                  Government Performance and Results Act Work Plan
We continually update our 3-year work plan to review the Social Security Administration’s (SSA) implementation
of the Government Performance and Results Act (GPRA) of 1993. The plan is based on SSA’s Fiscal Year (FY)
2000, Revised Final FY 2000, and FY 2001 Annual Performance Plans, which established the following broad stra­
tegic goals. The complete text of SSA’s Strategic Plan can be found on the internet at www.ssa.gov.

•	 Goal 1: To promote valued, strong, and responsive Social Security programs and conduct effective policy
   development, research, and program evaluation

•     Goal 2: To deliver customer-responsive, world-class service

•     Goal 3: To make SSA program management the best-in-business, with zero tolerance for fraud and abuse

•     Goal 4: To be an employer that values and invests in each employee

•     Goal 5: To strengthen public understanding of the Social Security programs

Each of these strategic goals has supporting objectives and corresponding performance indicators and goals.

The following is our plan for reviewing SSA’s GPRA implementation and performance measures. As performance
measures and goals change in future annual performance plans, we will adjust our work plan accordingly.


                                     FY 1999 – Completed Reviews
In FY 1999, we conducted performance measure reviews to determine the reliability of the data used to measure the
following SSA performance indicators and goals from SSA’s FY 2000 Annual Performance Plan.


    Strategic Goal: To deliver customer-responsive, world-class service

    Objective: By 2002, to have 9 out of 10 customers rate SSA’s service as good, very good, or excellent, with most
    rating it excellent

                                       Performance Indicator                                            FY 2000 Goal

    Percent of SSA’s core business customers rating SSA’s overall service as excellent, very                  88
    good, or good
    Percent of SSA’s core business customers rating SSA’s overall service as excellent                        37

    Percent of SSA’s core business customers rating the clarity of SSA’s notices as excellent,                82
    very good, or good


    Objective: To raise the number of customers who receive service and payments on time

                                       Performance Indicator                                            FY 2000 Goal

    Percent of original and replacement Social Security number (SSN) cards issued within 5                    97
    days of receiving all necessary information




                                                                               Inspector General’s Report to Congress   195
                                    FY 2000 – Completed Reviews
In FY 2000, we completed a survey of the data sources SSA uses to produce its performance data and a review of the
FY 2000 Annual Performance Plan. We also completed performance measure reviews to determine the reliability of
the data used to measure the following SSA performance indicators and goals from SSA’s FY 2000 and Revised
Final FY 2000 Annual Performance Plans.


 Strategic Goal: To deliver customer-responsive, world-class service

                                   Output Measures for Major Budgeted Workloads

 Retirement Survivors Insurance claims processed                                                  3,134,800
 Supplemental Security Income (SSI) aged claims processed                                          144,200

 SSN requests processed                                                                           16,300,000


 Objective: To raise the number of customers who receive service and payments on time

                                      Performance Indicator                                     FY 2000 Goal

 Percent of Old-Age and Survivors Insurance (OASI) claims processed by the time the first             83
 regular payment is due or within 14 days from effective filing date, if later

 Percent of initial SSI aged claims processed within 14 days of filing date                           66


 Strategic Goal: To make SSA program management the best-in-business, with zero tolerance for fraud and
 abuse

                                   Output Measures for Major Budgeted Workloads

 Continuing Disability Reviews (CDR) processed                                                    1,804,000

 Annual Earnings postings                                                                        258,900,000

 Representative Payee actions                                                                     6,990,600


 Objective: To make benefit payments in the right amount

                                      Performance Indicator                                      FY 2000 Goal

 Dollar accuracy of OASI payment outlays:

      Percent without overpayments                                                                   99.8
      Percent without underpayments                                                                  99.8




196    SSA’s FY 2000 Performance and Accountability Report
Objective: To maintain through 2002, current levels of accuracy and timeliness in posting earnings data to
individuals’ earnings records

                                    Performance Indicator                                               FY 2000 Goal

Percent of wage items posted to individuals’ records by September 30                                          98


Objective: To increase debt collections by 7 percent annually through 2002

                                    Performance Indicator                                              FY 2000 Goal

Old-Age, Survivors and Disability Insurance (OASDI) debt collected                                    $1,274.9 million

SSI debt collected                                                                                     $684.8 million


Strategic Goal: To be an employer that values and invests in each employee

Objective: To provide a physical environment that promotes the health and well-being of employees

                                    Performance Indicator                                              FY 2000 Goal

Percent of employees reporting they are satisfied with the level of security in their facility               75


Strategic Goal: To strengthen public understanding of the Social Security programs

Objective: By 2005, 9 out of 10 customers will be knowledgeable about the Social Security programs in 5
important areas

                                    Performance Indicator                                              FY 2000 Goal

Percent of individuals issued SSA-Initiated Personal Earnings and Benefit Estimate                           100
Statement as required by law




                                                                              Inspector General’s Report to Congress   197
                                          FY 2001 – Planned Reviews
In FY 2001, we plan to conduct performance measure reviews of:

•     SSA’s FY 1999 and FY 2000 Annual Performance Report, and

•     SSA’s FY 2001 and 2002 Annual Performance Plan.

We also plan to conduct reviews that will determine the reliability of the data used to measure the following SSA
performance indicators and goals from SSA’s FY 2001 Annual Performance Plan.


    Strategic Goal: To promote valued, strong, and responsive Social Security programs and conduct effective
    policy development, research, and program evaluation

    Objective: Provide information for decisionmakers and others on the Social Security and SSI programs through
    objective and responsive research, evaluation, and policy development

                                          Performance Indicator                                        FY 2001 Goal

    Percent of customers assigning a high rating to the quality of SSA’s research and analysis       Establish a
    products in terms of accuracy, reliability, comprehensiveness, and responsiveness                baseline


    Objective: To promote policy changes, based on research and evaluation analysis, that shape the disability
    program in a manner that increases self-sufficiency and takes account of changing needs based on the medical,
    technological, demographic, job market, and societal trends

                                          Performance Indicator                                       FY 2001 Goal

    Increase in number of Disability Insurance adult worker beneficiaries who begin a trial work        10 percent
    period
    Increase in the number of SSI disabled beneficiaries, aged 18-64, participating in 1619(a)          10 percent


    Strategic Goal: To deliver customer-responsive, world-class service

                                    Output Measures for Major Budgeted Workloads

    Initial disability claims processed                                                                 2,057,000

    Hearings processed                                                                                   582,000

    800-number calls handled                                                                            57,000,000


    Objective: By 2002, to have 9 out of 10 customers rate SSA’s service as good, very good, or excellent, with most
    rating it excellent

                                           Performance Indicator                                        FY 2001 Goal

    Percent of employers rating SSA’s overall service as excellent, very good, or good                        94

    Percent of employers rating SSA’s overall service as excellent                                            16
    Percent of callers who successfully access the 800-number within 5 minutes of their first call            92



198     SSA’s FY 2000 Performance and Accountability Report
Objective: By 2002, to have 9 out of 10 customers rate SSA’s service as good, very good, or excellent, with most
rating it excellent

                                     Performance Indicator                                              FY 2001 Goal

Percent of callers who get through to the 800-number on their first attempt                                    86

Percent of public with an appointment waiting 10 minutes or less                                               85

Percent of public without an appointment waiting 30 minutes or less                                            70

Percent of 800-number calls handled accurately:

   Service accuracy                                                                                            90

   Payment accuracy                                                                                            95


Objective: To raise the number of customers who receive service and payments on time

                                       Performance Indicator                                            FY 2001 Goal

Initial disability claims average processing (days)                                                           117

Hearings average processing time (days)                                                                       208


Strategic Goal: To make SSA program management the best-in-business, with zero tolerance for fraud and
abuse

                               Output Measures for Major Budgeted Workloads

SSI nondisability redeterminations                                                                        2,050,500


Objective: To make benefit payments in the right amount

                                     Performance Indicator                                              FY 2001 Goal

Disability Determination Services net decisional accuracy rate                                                97
Percent of SSNs issued accurately                                                                            99.8

Office of Hearings and Appeals decisional accuracy rate                                                       87


Objective: To maintain through 2002, current levels of accuracy and timeliness in posting earnings data to
individuals’ earnings records

                                     Performance Indicator                                              FY 2001 Goal

Percent of earnings posted correctly                                                                          99




                                                                              Inspector General’s Report to Congress   199
 Objective: To become current with Disability Insurance and SSI CDR requirements by 2002

                                      Performance Indicator                                    FY 2001 Goal

 Percent of multi-year (FY 1996 - 2002) CDR plan completed                                           83


 Objective: To aggressively deter, identify, and resolve fraud

                                      Performance Indicator                                    FY 2001 Goal

 Number of investigations conducted (i.e. closed)                                                          8,000

 OASDI dollar amounts reported from investigative activities                                       $55 million

 SSI dollar amounts reported from investigative activities                                         $90 million
 Number of criminal convictions                                                                            2,500


 Strategic Goal: To be an employer that values and invests in each employee

 Objective: To promote an Agency culture that successfully incorporates our values

                                      Performance Indicator                                    FY 2001 Goal

                                                                                              Implement
 Create Agency change strategy
                                                                                              strategy


 Objective: To create a workforce to service SSA’s diverse customers in the 21st century

                                      Performance Indicator                                    FY 2001 Goal

 Complete Agency plan for transitioning to the workforce of the future                        Implement and
                                                                                              update
                                                                                              transition plan
                                                                                              Develop and
                                                                                              implement
                                                                                              action items
                                                                                              from employee
                                                                                              survey


 Strategic Goal: To strengthen public understanding of the Social Security programs

 Objective: By 2005, 9 out of 10 Americans will be knowledgeable about the Social Security programs in 5
 important areas

                                      Performance Indicator                                    FY 2001 Goal

 Percent of public who are knowledgeable about Social Security programs                          70 percent




200   SSA’s FY 2000 Performance and Accountability Report
Appendix B

  Reporting Requirements Under the Omnibus Consolidated Appropria­
                    tions Act for Fiscal Year 1997
To meet the requirement of the Omnibus Consolidated Appropriations Act for 1997 (Public Law 104-208), we are
providing in this report requisite data for Fiscal Year 2000 from the Offices of Investigations and Audit.

We are reporting $30,037,959 in Social Security Administration (SSA) funds as a result of our Office of Investiga­
tions activities in this reporting period. These funds are broken down in the table below.


    Types of
                     Quarter 1          Quarter 2         Quarter 3            Quarter 4                  Total
     Funds

 Court-
 Ordered               $3,245,187         $3,376,445        $3,225,008              $3,679,643            $13,526,283
 Restitution

 Scheduled
                       $2,798,573         $2,672,431        $3,827,351              $3,423,780            $12,722,135
 Recoveries

 Fines                   $935,189           $265,455        $1,067,478                $179,320             $2,447,442

 Settlements/
                         $148,570           $709,917          $263,173                $220,439             $1,342,099
 Judgments

   TOTALS            $7,127,519*        $7,024,248*         $8,383,010             $7,503,182             $30,037,959
 *Figures updated from our prior semiannual report.

SSA management has informed the Office of Audit that         Audit of Administrative Costs Claimed by the Ohio
it has completed implementing recommendations from           Rehabilitation Services Commission for Its Bureau of
5 audit reports during this fiscal year valued at $16.2      Disability Determination (A-13-98-51007),
million.                                                     September 24, 1999

The Social Security Administration’s Procedures for          We recommended that SSA instruct the State of Ohio
Presumptive Disability Payments (A-01-98-21005),             Rehabilitative Services Commission to require the Ohio
March 2, 2000                                                State Bureau of Disability Determination to amend its
                                                             Forms SSA-4513 by a $28,895 increase, $871,223
We recommended that SSA remind staff to follow               decrease, and $266,800 decrease for Fiscal Years 1995,
SSA’s guidance in approving presumptive disability/          1996, and 1997, respectively, to adjust obligations. The
presumptive blindness payments so that such allow­           implemented recommendation is valued at $1.2 million.
ances are based on appropriate evidence. The imple­
mented recommendation is valued at $713,000.                 The Social Security Administration’s Controls over
                                                             Impairment-Related Work Expense Income
                                                             Exclusions (A-01-98-61010), December 20, 1999

                                                             We recommended that SSA emphasize to its employees
                                                             the importance of following established policies and
                                                             procedures to verify and document the need and pay­
                                                             ment for items or services before approving impair-




                                                                             Inspector General’s Report to Congress   201
ment-related work expense income exclusions. The            these cases to expedite the next scheduled full medical
implemented recommendation is valued at $1.98 mil-          continuing disability review. The implemented recom­
lion.                                                       mendation is valued at $9.47 million.

Management Advisory Report: Welfare Reform                  Southwest Tactical Operation Plan: Investigative
Childhood Redetermination Accuracy                          Results (A-06-97-22008), March 31, 1998
(A-01-98-62012), March 3, 1999
                                                            We recommended that SSA develop guidance on using
We recommended that SSA ensure that erroneous child-        locally determined characteristics warranting in-depth
hood continuances are reviewed by identifying ques­         investigation to accurately determine residency status.
tionable continuation cases and updating the profile of     The implemented recommendation is valued at $2.9
                                                            million.




202   SSA’s FY 2000 Performance and Accountability Report
Appendix C

                        Collections From Audits and Investigations
The Fiscal Year (FY) 1999 appropriations language for this office requires the reporting of additional information
concerning actual collections and offsets achieved as a result of Inspector General activities. Figures are to be pro­
vided for each semiannual period and as a cumulative number.

Office of Audit

                    Number of
                     Reports        Questioned/                         Amount           Amount
                                                      Management
  Fiscal Year         With          Unsupported                        Collected or     Written Off/          Balance
                                                      Concurrence
                    Questioned         Costs                           Recovered        Adjustments
                      Costs

      1997               6             $3,964,487        $3,377,089      $3,372,181            $4,908           $587,398

      1998              10            $14,661,078      $13,986,131      $14,482,081        $1,625,977           $390,625

      1999              10            $83,989,044      $78,341,141       $4,339,292        $1,305,397        $78,344,355

      2000               7            $76,991,654        $542,537*            $4,174           $1,155     $76,986,325**

   TOTALS               33          $179,606,263       $96,246,898      $22,197,728       $2,937,437       $156,308,703
 *The Social Security Administration has not yet made a management decision for Costs Claimed by American Institutes for
 Research on the Social Security Administration’s Contract Number 600-97-32018 (A-15-00-20034), August 14, 2000;
 Identification of Fugitives Receiving Supplemental Security Income Payments (A-01-98-61013), August 28, 2000; and Single
 Audit of the State of Mississippi for the Fiscal Year Ended June 30, 1998 (A-77-00-00006), August 31, 2000. These
 recommendations are valued at $76,447,962.

 **Although no management decision has been made for several of the FY 2000 recommendations (see note above), the
 recommended amounts are included in the FY 2000 balance figure because the balance is independent of management
 concurrence.




                                                                                Inspector General’s Report to Congress   203
Office of Investigations
          Table 1: Court Ordered Collections as the Result of Prosecution by the Department of Justice

                              Total Number of                                           Total Restitution Collected
                                                            Court Ordered Restitution
      Fiscal Year        Individuals Assigned Court                                        by the Department of
                                                                 for This Period
                            Ordered Restitution                                           Justice for This Period

         1999                         447                                 $13,100,203                    $1,292,954
         2000                         441                                 $13,526,283                    $2,232,424

      TOTALS                   Not Applicable                            $26,626,486                    $3,525,378

                                Table 2: Funds Received Based on Recovery Actions

                                                                                        Actual Amount Recovered
                            Number of Recovery               Amount Scheduled for
      Fiscal Year                                                                           at the Close of the
                             Actions Initiated                   Recovery
                                                                                               Investigation

         1999                        1,624                                $25,725,385                    $3,326,913

         2000                         445                                 $12,722,135                    $4,320,432

       TOTALS                        2,069                               $38,447,520                    $7,647,345




204   SSA’s FY 2000 Performance and Accountability Report
Appendix D

   Significant Monetary Recommendations From Prior Fiscal Years for 

           Which Corrective Actions Have Not Been Completed

School Attendance by Child Beneficiaries Over Age 18       Agency Response: SSA agreed that its monitoring of
(A-09-97-61007), September 27, 1999                        school attendance for child beneficiaries over age 18
                                                           could be more efficient with additional assistance from
Recommendation: We recommended that the Social             the school.
Security Administration (SSA) request assistance from
school officials in identifying and reporting changes in   Corrective Action: SSA has redesigned the process for
student attendance which may affect their benefit sta­     student benefits and has incorporated the recommenda­
tus.                                                       tion. Implementation will begin mid-2001. In the rede­
                                                           signed process, field offices will review, verify, and
Valued at: $140,359,563 in funds put to better use and     retain school attendance information.
$73,907,760 in questioned costs.




                                                                          Inspector General’s Report to Congress   205
206   SSA’s FY 2000 Performance and Accountability Report
Appendix E

Significant Nonmonetary Recommendations From Prior Fiscal Years for 

          Which Corrective Actions Have Not Been Completed

Patterns of Reporting Errors and Irregularities by            Agency Response: SSA agreed, in part. When a repre­
100 Employers with the Most Suspended Wage Items              sentative payee does not respond or will not cooperate
(A-03-98-31009), September 29, 1999                           after repeated attempts to obtain an annual accounting,
                                                              the FO is required to consider a change of payee when
Recommendation: We recommended that the Social                necessary. When the FO determines that a change of
Security Administration (SSA) develop and implement           payee is necessary, they develop for a successor payee.
a corrective action plan for the 100 employers who are        If a payee is not readily available, the beneficiary is
responsible for large numbers of suspended wage items         paid directly or placed in suspense status under certain
and continue its current efforts to contact them.             limited circumstances.
Agency Response: SSA agrees that corrective action            Corrective Action: SSA will examine changing proce­
should be taken.                                              dures to allow employees to redirect benefit checks to
Corrective Action: SSA is in its third year of contact­       the FO if it is in the best interest of the beneficiary.
ing the 100 employers with large numbers of suspended         SSA will convene a workgroup to determine who the
wage items. They plan to continue these efforts as a          representative payees are that are not returning the
way of educating these employers of the importance of         annual accounting forms, including their relationship to
submitting accurate wage reports.                             the beneficiary and their compliance history, and to
                                                              research what legal/statutory authority the Agency
School Attendance by Child Beneficiaries Over Age 18          could use to put any revised procedures into place.
(A-09-97-61007), September 27, 1999
                                                              The Social Security Administration’s Procedures to
Recommendation: We recommended that SSA evaluate              Identify Representative Payees Who are Deceased
the feasibility of shifting the responsibility for monitor­   (A-01-98-61009), September 22, 1999
ing student beneficiaries from the program service cen­
ters to the field offices.                                    Recommendation: We recommended that SSA rou­
                                                              tinely match the Death Master File against the Master
Agency Response: SSA agreed to evaluate the recom­            Representative Payee File to identify deceased repre­
mendation as they proceed with the redesign process.          sentative payees and select new representative payees
                                                              for all beneficiaries and/or recipients affected.
Corrective Action: As part of the redesign effort, the
Agency plans to focus on the front-end of the process         Agency Response: SSA agrees with the intent of the
and to contact schools prior to awarding student bene­        recommendation, that is, to identify all cases where a
fits. In its latest status report, the Agency stated that     representative payee has died so that the appropriate
the proposal would be released shortly.                       payee change can be taken. SSA believes that the
                                                              actions envisioned in the Agency’s Enumeration/Client
Nonresponder Representative Payee Alerts for                  5-year Systems Plan will address the issue of better
Supplemental Security Income Recipients                       identifying representative payees who die. These
(A-09-96-62004), September 23, 1999                           actions include automatic checks of the Master Repre­
Recommendation: We recommended that SSA develop               sentative Payee File when a report of death from a third
procedures for employees to redirect benefit checks to        party is keyed into the Death Master File and new
field offices (FO) (and require representative payees to      screens to reconcile discrepancies between data bases
provide the accounting forms before releasing checks)         with a single input.
in instances where other attempts to obtain the required
forms have been unsuccessful.




                                                                              Inspector General’s Report to Congress   207
Corrective Action: Beginning in December, SSA plans         potential fraud/abuse cases, subject to SSA’s evaluation
to develop a schedule which will contain completion         of the most advantageous method of presentation on the
dates and milestones.                                       Supplemental Security Income Display.

Early Alert: Disclosure of Personal Information on
         Agency Response: The Agency agreed to implement
Representative Payees (A-01-99-82008),
                     this recommendation only if the Office of the General
January 21, 1999 (CONFIDENTIAL
                             Counsel (OGC) found no legal problems.
MEMORANDUM)

                                                            Corrective Action: OGC’s opinion raises several con­
Recommendation: SSA should verify the death infor­          cerns, and confirms that developing a code or remarks
mation for the 6,004 representative payees our match        based on “potential” or “suspected” fraud/abuse would
shows as deceased on the Death Master File but cur­         leave SSA open to civil action. There is no pending
rently serving as representative payees for beneficiaries   legislation that would alter their assessment. As an
on the Master Beneficiary Record and the Supplemental       alternative, SSA requires the Disability Determination
Security Record.                                            Services (DDS) to insert a list code in any record for
                                                            which there is a finding of fraud or similar fault. In
Agency Response: The Agency has not yet issued a            addition, the Agency has asked the Office of the Inspec­
management decision.                                        tor General’s (OIG) Office of Investigations to deter-
Corrective Action: Corrective action has not yet been       mine what other public and private data exist based on
reported.                                                   findings of wrongful activity. If OIG were to find that
                                                            such information is available, we would then work with
Special Joint Vulnerability Review of the                   OIG and the Office of Systems to develop a way to
Supplemental Security Income Program                        make it accessible to field employees. In the interim,
(A-04-95-06020), December 16, 1997                          instructions encourage the DDSs to maintain local lists
                                                            of problem cases.
Recommendation: We recommended that SSA modify
the Supplemental Security Income Display to include
additional comments or codes for the identification of




208   SSA’s FY 2000 Performance and Accountability Report
Appendix F

  Significant Management Decisions With Which the Inspector General 

                             Disagrees

Procedures for Verifying Evidentiary Documents            processed Earnings Modernization (EM) transactions
Submitted with Original Social Security Number            and provide appropriate feedback and related training to
Applications (A-08-98-41009), September 19, 2000          FO personnel.

We recommended that the Social Security Administra­       We recommended that SSA require FO personnel to
tion (SSA) obtain independent verification from the       document the basis of all resolution actions taken on
issuing Agency for all alien evidentiary documents        EMs for an appropriate period of time to facilitate man­
before approving the respective Social Security number    agement review.
(SSN) applications, until the Enumeration at Entry pro-
gram is implemented.                                      Social Security Administration’s Suitability Program
                                                          for Employees and Contractors (A-14-99-12006),
We recommended that SSA propose legislation that dis­     June 30, 2000 (CONFIDENTIAL)
qualifies individuals who improperly attain SSNs from
receiving work credits for periods that they were not     We recommended that SSA centralize the suitability
authorized to work or reside in the United States.        program under a single Deputy Commissioner.

Effectiveness of Internal Controls in the Modernized
     Review of Internal Controls Over the Processing of
Enumeration System (A-08-97-41003), 
                     One-Check-Only Payments (A-05-97-61001),
September 14, 2000
                                       November 9, 1999 (CONFIDENTIAL)

We recommended that SSA require field office (FO)         We recommended that SSA develop guidelines to main­
management to perform periodic quality reviews of         tain One-Check-Only payment authorization forms in
                                                          the case folders.




                                                                          Inspector General’s Report to Congress   209
210   SSA’s FY 2000 Performance and Accountability Report
How to Report Fraud

The Social Security Administration’s (SSA) Fraud Hotline offers a convenient
means for you to provide information on suspected fraud, waste, and abuse. If you
know of current or potentially illegal or improper activities involving SSA
programs or personnel, we encourage you to contact the SSA Fraud Hotline.


                                     Call

                                1-800-269-0271


                                    Write

                         Social Security Administration
                         Office of the Inspector General
                         Attention: SSA Fraud Hotline
                                 P.O. Box 17768
                             Baltimore, MD 21235

                              (FAX) 410-597-0118


                                   E-mail

                              oig.hotline@ssa.gov




                                                     Inspector General’s Report to Congress   211
212   SSA’s FY 2000 Performance and Accountability Report
